<html>
<title> - THE FUTURE OF DEMOCRACY IN THE BLACK SEA AREA</title>
<body><pre>[Senate Hearing 109-112]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-112

             THE FUTURE OF DEMOCRACY IN THE BLACK SEA AREA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED NINETH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2005

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
23-171                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                    GEORGE ALLEN, Virginia, Chairman

GEORGE V. VOINOVICH, Ohio            JOSEPH R. BIDEN, Jr., Delaware
LISA MURKOWSKI, Alaska               PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
LINCOLN CHAFEE, Rhode Island         RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, opening statement     1
Baran, Zeyno, director, International Security and Energy 
  Programs, the Nixon Center, Washington, DC.....................    36
    Prepared statement...........................................    41
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     5
Jackson, Bruce, president, Project on Transitional Democracies, 
  Washington, DC.................................................    21
    Prepared statement...........................................    25
Socor, Vladimir, senior fellow, Jamestown Foundation, Washington, 
  DC.............................................................    30
    Prepared statement...........................................    33
Tefft, Hon. John F., Deputy Assistant Secretary of State for 
  European and Eurasian Affairs, Department of State, Washington, 
  DC.............................................................     6
    Prepared statement...........................................    11

                                 (iii)

  

 
             THE FUTURE OF DEMOCRACY IN THE BLACK SEA AREA

                              ----------                              


                         TUESDAY, MARCH 8, 2005

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:38 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. George Allen, 
chairman of the subcommittee, presiding.
    Present: Senator Allen.

   OPENING STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM 
                            VIRGINIA

    Senator Allen. Good afternoon and welcome to all who have 
gathered. We're a little delayed. We had a vote on the floor, 
and thank you all for your forbearance.
    I'm proud to call this hearing to order. This is the first 
subcommittee hearing of any subcommittee on the Foreign 
Relations Committee in this term, and this Subcommittee on 
European Affairs is going to examine the future of democracy in 
the Black Sea area.
    I will introduce--we have two panels of witnesses this 
afternoon. I'll introduce each in greater detail as they 
present themselves. First we'll hear from Ambassador John Tefft 
who is the Deputy Assistant Secretary for European and Eurasian 
Affairs at the Department of State. On the second panel the 
subcommittee will be hearing testimony from Mr. Bruce Jackson, 
who is the president of the Project on Transitional 
Democracies; Mr. Vladimir Socor, senior fellow at the Jamestown 
Foundation; and Ms. Zeyno Baran, the director of International 
Security and Energy Programs at the Nixon Center. We welcome 
you all.
    Also, Senator Biden will not be able to be here this 
afternoon, and his statement will be made part of the record.
    I do understand that the Ambassador from Georgia to the 
United States, Levan Mikeladze, is here. Mr. Ambassador, wave 
your hand so we can see where you are. There you are. Welcome.
    And we have a good sized delegation of leaders from Turkey 
with us, led by Faruk Celik, who is the deputy chair, the 
equivalent of the majority whip here, and so we welcome all our 
visitors and friends from Turkey. Thank you all for being here 
as well.
    We all know that the Black Sea region is strategically 
located. It lies in close proximity to Europe, to Russia, and 
the former Soviet Republics, as well as the Middle East. Given 
its geographic importance and the threats facing both the 
United States and the world, it's clear that the United States 
should carefully examine the role that we play in the Black Sea 
region, and determine whether it's in our interest to become 
even more engaged.
    In making such a determination, we first must examine where 
today's threats are coming from and where tomorrow's threats 
are likely to emerge, assess the situation presently, 
anticipate the future, and then determine the appropriate 
actions one should take.
    Now, we all recognize that there are many trouble spots all 
over the world. But most would agree that the Middle East is 
going to continue to be a home of many governments and also 
groups that will threaten the interests of the United States 
and our allies in one form or another. And it is important, in 
my point of view, that we be engaged in this region, and it's 
not going to be just for a short period of time. It's going to 
be for many years to come.
    Therefore, it's logical that the United States shore up its 
alliances with countries that surround the Middle East. It is 
clearly in our interest to have the governments and the 
countries on the Black Sea move closer toward the principles of 
freedom and justice.
    So, given this interest, the question becomes: How can the 
United States help promote reform in this region? At the 
outset, we should take note that the recent revolutions in 
Georgia and the Ukraine have ushered in proreform leaders in 
governments that have pledged transparency, accountability, and 
the end of corruption. These are positive developments that we 
must support, when and where appropriate, to ensure their 
sustainability.
    However, there are still a number of countries in the 
region that have significant progress to make before they can 
objectively be viewed as representative governments or free and 
just societies. During the recent hearing, that I chaired, on 
the President's international assistance budget for Europe and 
Eurasia, officials from USAID provided several graphs and 
charts, and they were from different organizations, Freedom 
House and others, which measured economic reforms and 
democratic freedoms.
    I'm one who believes that objective measurements are very, 
very helpful, because whatever can be measured can be made 
better. There needs to be something that measures progress. The 
graphs that they had--they had all sorts of reform charts, 
economic reforms on one axis, democratic reforms on another 
axis, and then rated each country in Europe and Eurasia on a 
scale of one to five.
    Not surprisingly, the countries in the European Union, 
particularly Western Europe, rated the highest as far as 
economic freedoms and also democratic freedoms. The West was 
No. 1, but then you had countries in this order: Northern 
Europe, Southeastern Europe, and finally was Eurasia.
    What that showed were, there are a number of countries on 
the Black Sea that have made significant progress, such as 
Bulgaria and Romania, while in the South Caucasus, it was clear 
that a number of changes had to become--had to come into 
fruition to really have free and market-oriented societies.
    What was also instructive about these graphs and these 
measurements were how these countries with the highest levels 
of freedom and the most economic reform not only enjoyed 
greater economic prosperity and opportunities and security, but 
they also had a higher life expectancy. So it's not just jobs, 
it's not just economic, it's not just investment. It's also--
there's a correlation also with the life expectancy of their 
citizens.
    Now, I find these to be very helpful and somewhat powerful 
arguments and ones that our country should continue to 
emphasize to those nations in the Black Sea region that may 
have regressed from the initial democratic free market reforms 
that were made following the fall of the Soviet empire.
    Representative government and free enterprise, of course, 
are noble principles. But to be successful, they must be 
coupled with transparency and accountability. An impediment to 
progress in many Black Sea countries has been the systemic 
corruption that drains the public of all confidence in the 
government and reinforces the belief that cronyism is the only 
path to success, with individuals not judged on their merits, 
but by--on their proximity to people in power.
    There has been some progress, notably the efforts of the 
Georgian Government to purge crooked officials from ministries 
and law enforcement agencies. However, until national 
governments make the eradication of corruption a top priority, 
they will continue to lag.
    It's clear that foreign businesses will not invest in 
countries where they cannot expect equal justice under the law, 
and where bribes are the common business practice. That's not 
going to give any company any confidence in the stability, the 
credibility they need to be making large investments when 
choosing among many places around the world.
    Also hindering further progress in the region is the role 
of Russia. The Russian Government is playing an unconstructive 
role by maintaining troops in Moldova and in Georgia. Those 
troops are not maintaining order, and are often posted in 
regions where lawlessness and smuggling are rampant.
    Russian involvement in last year's Ukrainian elections and 
its habit of punishing neighbors by withholding oil and natural 
gas are additional examples of Russia's unconstructive policy 
in the region.
    Russia may somehow feel threatened by the emergence of 
democracy so close to its borders and may stubbornly want to 
maintain control or influence over the former republics. Now, 
while the United States should acknowledge how these changes 
are perceived by Russia, I believe that our country must take a 
firm stance against policies and activities that inhibit 
progress and fuel instability in several Black Sea areas.
    Further impediments are--to greater reform are long--are in 
some of the longstanding conflicts that continue in the region, 
for example, the Nagorno-Karabakh conflict. If it could be 
resolved, it could have far-reaching, positive implications for 
the entire region. Peace between the Armenians and the Azeris 
would stabilize the region in question and would lead to 
normalized relations between Armenia and Turkey, opening the 
border between the two countries, and obviously access to more 
markets. Peace between these two neighbors would provide 
Armenia, also, with greater prospects for economic success and 
diminish the need for closer ties with Iran.
    Now, given the strategic significance of the Black Sea and 
the prospects for movement toward democracy, I continue to 
believe that the United States should begin basing more assets 
at locations within the region. I understand that this is a 
decision for the Department of Defense, it's not a State 
Department decision. However, the threats facing the United 
States and our allies may require swift and sometimes massive 
response to remote places anywhere in the world, but especially 
in Central Asia, and we know, in the Middle East. We must 
objectively consider the merits of repositioning a portion of 
the U.S. bases and assets where they're more likely or more 
useful for the missions that are predictable ahead.
    Another consideration to this argument is cost. Countries 
like Romania and Bulgaria offer existing infrastructure and 
lower costs than Western Europe. Knowing the need to maximize 
every dollar we spend, it makes sense that we take a hard look 
at an area that is geographically advantageous and reduces the 
cost to American taxpayers.
    We all recognize our military is undergoing a 
transformation to become a lighter, more agile fighting force. 
It makes sense also, therefore, to examine how our forces are 
aligned around the world to make sure they're ready to confront 
the threats quickly and effectively.
    The majority, in closing, of the countries in the Black Sea 
have seen the importance of aligning themselves with the United 
States in the overall war on terrorism and the campaigns in 
Afghanistan and Iraq. At the same time, the United States needs 
to recognize the strategic importance of the Black Sea.
    Further progress toward establishment of free and just 
societies throughout the region would bring economic prosperity 
to the people in those countries that unfortunately continue to 
lag behind their Western neighbors. And at the same time, it 
serves our foreign policy and economic interests that they do 
so move in the right direction.
    I want to thank our witnesses again for appearing before 
the subcommittee this afternoon. I look forward to your 
testimony. I'm going to first introduce our first panel of one, 
Ambassador John Tefft. Ambassador Tefft is presently the Deputy 
Assistant Secretary for European and Eurasian Affairs at the 
Department of State. Long, distinguished career, more recently 
from 2000 to 2003 he was our Ambassador to Lithuania, and he's 
also served as Deputy Chief of Mission at the U.S. Embassy in 
Moscow from 1996 to 1999, and was a Charge d'Affaires at the 
Embassy from November 1996 until September 1997.
    Ambassador Tefft has also served as Director of the Office 
of Northern European Affairs from 1992 to 1994, and also Deputy 
Director in the Office of the Soviet Union, later Russia and 
CIS Affairs from 1989 to 1992. Also--at least you had one in a 
warm place--the Embassy in Rome from 1986 to 1989.
    He has also had foreign assignments in Budapest and 
Jerusalem, as well as service on the United States delegation 
on the START arms control negotiations in 1985. In his current 
position as Deputy Assistant Secretary, Ambassador Tefft 
supervises the offices in the European Bureau responsible for 
United States bilateral relations with Russia, Ukraine, 
Moldova, and Belarus, as well as the Office of Policy and 
Regional Affairs, which coordinates nonproliferation, security 
assistance, export control, and other related issues throughout 
the European Bureau.
    [The prepared statement of Senator Biden follows:]

 Prepared Statement of Joseph R. Biden, Jr., U.S. Senator from Delaware

    Thank you, Mr. Chairman, and thank you for holding this important 
hearing.
    Since September 2001 we have, understandably, been concentrating on 
the Middle East and central Asia. Of late, a neighboring region, the 
area surrounding the Black Sea, has increasingly claimed our attention. 
It has vital strategic importance. It contains examples of significant 
progress, but also cases of unresolved conflicts.
    Several large trends can be discerned in recent events in the Black 
Sea area, among them:

  <bullet> A rising tide of democracy, first in Georgia, and then in 
        Ukraine;
  <bullet> Receding Russian influence and Moscow's efforts to reverse 
        this process;
  <bullet> Connected with Russia's efforts, the persistence of the so-
        called ``frozen conflicts'' in Georgia's Abkhazia and South 
        Ossetia, in Azerbaijan's Nagorno-Karabakh, and in Moldova's 
        Transnistria; and
  <bullet> The drawing closer to Euro-Atlantic institutions by Romania, 
        Bulgaria, and Turkey.

    Mr. Chairman, we are fortunate to have four outstanding witnesses 
this afternoon with expertise on these and other relevant issues. 
Therefore, I will not take up valuable time with a country-by-country 
recitation of details.
    Rather, I would like to make a few analytical comments on the topic 
of this hearing, the future of democracy in the Black Sea area.
    First and foremost, I would emphasize that democratization is not a 
zero-sum game. Obviously, in large part I am directing this observation 
at our friends in the Kremlin.
    To be specific: A democratic, independent Georgia or Ukraine or 
Moldova--that deepens its ties with the United States, the European 
Union, or NATO does not represent a threat to, or setback for Russia. 
The Soviet Union is dead and buried. It will not return in some new 
guise, and for its own good Moscow should come to terms with the 
realities of the 21st century.
    On the contrary, a strengthened and increasingly western-looking 
Georgia, Ukraine, and Moldova would stabilize Russia's southwestern and 
western borders, enabling more effective controls against terrorism and 
providing legitimate commercial opportunities for Russia's 
international entrepreneurs.
    I would add that the inhabitants of the break-away regions--
Abkhazia, South Ossetia, Nagorno-Karabakh, and Transnistria--would also 
profit from peaceful settlement of their conflicts. Normalization would 
lead to more foreign investment and economic development.
    Second, I would hold up Georgia's ``Rose Revolution'' and Ukraine's 
``Orange Revolution'' as hopeful examples to still-oppressed peoples 
elsewhere, above all to the brave people of Belarus who continue to 
suffer under the brutal repression of Alexander Lukashenka. Lukashenka 
is running scared, and he should be, for his days in power are 
numbered.
    Third, the run-up to Ukraine's elections last fall and the reaction 
to the fraud perpetrated in the first round provided an encouraging 
example of successful high-stakes cooperation between the United States 
and countries of the European Union.
    Such cooperation can, and should continue elsewhere.
    Fourth, Romania and Bulgaria demonstrate that even countries that 
for decades were cursed with two of the worst Communist dictatorships 
in Eastern Europe can achieve remarkable success.
    Today, both Romania and Bulgaria are members of NATO, and both 
stand on the threshold of joining the European Union. Neither country 
is perfect. Both have continuing challenges. But no one--and I mean no 
one--in Bucharest or Sofia less than 20 years ago could have dreamed 
how incomparably better their country would be in 2005.
    Fifth and finally, I would caution that progress rarely follows a 
linear trajectory. In most countries there will be false starts, 
mistakes, and setbacks.
    In that regard, I confess to considerable disappointment in reports 
I have been hearing about recent developments in Turkey. I had been 
favorably impressed with the pragmatism of Prime Minister Erdogan, both 
in domestic and foreign policy. Then came the runup to the Iraq war, 
during which the Bush administration badly mishandled our relations 
with Turkey.
    A negative reaction from the Turkish public was perhaps to be 
expected, but not the virulent anti-Americanism and anti-Semitism that 
has been described in the western press.
    I hope that this ugliness is just a transient phenomenon, and that 
Erdogan and other moderate Turkish leaders will guide opinion back into 
the time-tested close cooperation with the United States, even as 
Ankara embarks upon the lengthy process of qualifying for EU 
membership.
    Welcome, again, to our witnesses, and thank you for your 
leadership, Mr. Chairman.

    Sen Allen. Mr. Tefft, if you have an opening statement 
you'd like to give, we'd be pleased to hear from you.
    Mr. Ambassador.

STATEMENT OF HON. JOHN F. TEFFT, DEPUTY ASSISTANT SECRETARY OF 
 STATE FOR EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Tefft. Mr. Chairman, thank you very much. I'm 
really delighted to be here this afternoon to discuss the state 
of democracy in the Black Sea region and the prospects for 
further democratic evolution there.
    While we address aspects of this important issue in one way 
or another literally every day at the State Department, 
occasions for reflecting comprehensively on the region are 
frankly very rare. So I, especially, value the chance to share 
with you today our thoughts on where we are with U.S. policy 
toward the countries of the region and where we're headed.
    Let me try to summarize in this opening statement the 
prepared testimony which we have submitted for the record.
    Senator Allen. Mr. Ambassador and all our witnesses, we 
have your statements. Your statements will be made part of the 
record, and if you wanted to paraphrase or summarize your 
remarks, that would also be welcome.
    Ambassador Tefft. The nine nations of the Black Sea region, 
Romania, Bulgaria, Turkey, Ukraine, Moldova, Georgia, Armenia, 
Azerbaijan, and Russia, are diverse and hard to categorize as a 
group. Geographical proximity and overlapping histories have 
created rivalry and friction, as well as cooperation and 
alliance. Centrifugal forces impelling countries outward 
compete with a strong pull toward greater regional integration.
    U.S. policy, by necessity, takes the specific 
characteristics of each country and its unique geopolitical 
situation into account and deals with each one of them 
accordingly. There are some broad commonalities. Black Sea 
States are all members of the Organization of Security and 
Cooperation in Europe, and they're either members of NATO or 
NATO's Partnership for Peace.
    They belong, together with Greece, Albania, and Serbia 
Montenegro, to the Organization for Black Sea Economic 
Cooperation. Incidentally, Mr. Chairman, we're now considering, 
in consultation with the members of the Black Sea Economic 
Cooperation Organization, the possibility that we will 
participate soon as an observer to that organization.
    Energy transport is one of the strongest links among the 
Black Sea nations. Energy pipelines that are both existing or 
under construction or planned crisscross the region and create 
real opportunities for cooperation and development of a 
regional dialog. Coordination between energy-exporting states 
and transit nations is needed to solve Bosporus bottlenecks and 
develop efficient solutions to ensure that energy supplies 
reach the world market. The United States has consistently 
worked toward this goal through encouragement of multiple 
pipelines and export routes.
    But with a closer look, the similarities among these 
countries start to break down. They vary in size from the huge, 
Russia with over 140 million people, to the rather small, 
Moldova with 4 million and Armenia with 3 million. They are at 
various stages of economic development. Turkey, Russia, 
Romania, and Bulgaria fall firmly in the World Bank's middle-
income category with annual GDP per capita well over $2,000. 
Others such as Moldova and the Caucasus countries lag behind 
with yearly income under $1,000 per person. Most of the 
countries belong to the World Trade Organization. Russia, 
Ukraine, and Azerbaijan are the exceptions.
    On the other end of the economic integration schedule--
integration scale--Romania and Bulgaria are solid candidates 
for EU membership this decade. Turkey, already an OECD member, 
is likely to be next after them.
    Geostrategic differences are also striking. Three 
countries, Turkey since the cold war, and Romania and Bulgaria 
since last year, are NATO members. The others, former republics 
of the U.S.S.R., belong, however loosely, to the Commonwealth 
of Independent States. Four of these, Georgia, Ukraine, 
Azerbaijan, and Moldova, together with Uzbekistan, form GUUAM, 
an organization with projects on law enforcement cooperation 
and development of essential economic infrastructure. Last week 
in Chisinau, Presidents Saakashvili, Yushchenko, and Voronin 
jointly called for revitalizing GUUAM as Moldova assumes 
chairmanship next month.
    Separatist conflicts impede nation building and 
democratization in a number of the Black Sea region's 
countries, and the United States is actively engaged in trying 
to solve those conflicts. Significant differences remain 
between Armenia and Azerbaijan over Nagorno Karabakh, but 
Presidents Kocharian and Aliyev are committed to a peaceful 
resolution. We support the OSCE Minsk group's efforts to 
advance toward a settlement there, and we're encouraged by 
discussions over the last year toward a negotiated settlement.
    Transnistrian provocations caused the collapse of Moldovan 
political settlement talks last summer. Nevertheless, we 
continue to work with Moldova and OSCE partners to press Russia 
to work with us and the international community to promote 
progress on settlement in Moldova.
    In Georgia, we support President Saakashvili's goal of 
reuniting the country and encourage Georgia to resolve the 
conflicts in South Ossetia and Abkhazia in a peaceful manner.
    We also continue to insist that Russia fulfill its 
remaining Istanbul Commitments on the withdrawal of its forces 
from Moldova, and on reaching agreement with Georgia on the 
duration and status of Russian forces there.
    Throughout these protracted conflicts, the United States 
has been consistent in supporting the territorial integrity of 
Azerbaijan, Moldova, and Georgia, as well as the Russian 
Federation with respect to the Chechen separatist movement.
    These facts provide a context for the discussion of these 
countries' different levels of democratic development as well. 
Freedom House, in its 2005 comparative ranking of world's 
countries, found two of the Black Sea states, Romania and 
Bulgaria, met its standards as free countries. Another two, 
Russia and Azerbaijan, fall so far short of these standards 
that they are rated not free.
    The other five fall in between. Freedom House categorizes 
them as partly free. Our human rights report for 2004, which 
was just released to the Congress on February 28, while it does 
not use such specific categories, also reflects the divergence 
Freedom House found in the democracy and human rights records 
of these countries.
    Mr. Chairman, I'd like to highlight, briefly, the democracy 
and democratization processes in each of these countries and 
describe what the U.S. Government is going to do to improve the 
record. My prepared remarks have a much more extensive 
discussion of each one of the countries, but let me just hit 
brief highlights.
    Romania. In December 2004, Romania underwent a democratic 
transition with the candidate representing an alliance of 
opposition parties winning a very close Presidential run-off. 
Civil society organizations, including some that received U.S. 
assistance, played a strong role as election monitors in 
advocating an issue-based political campaign and in pressing 
for nonbiased media coverage of the campaign.
    President Basescu is scheduled to meet with President Bush 
here, tomorrow, in Washington. The leaders of the former 
government, including the former President and Prime Minister, 
now serve in Romania's Parliament. Romania believes its 
location on the Black Sea, its membership in NATO, and its 
respective membership in the European Union, leaves it well 
placed to provide a bridge to Europe for the countries of the 
Caucasus. In particular, the Romanians believe they can serve 
as a model for these democratizing countries. To this end, 
Romania has been active in the community of democracies 
initiative, and recently organized an international mission to 
Georgia of NGO and other experts to discuss media freedom, 
judicial reform, and other democracy issues.
    Bulgaria. Bulgaria's six national elections since 1990 are 
scheduled for June 2005 with a wide but moderate political 
spectrum expected to participate. Elections since 1990 have met 
acceptable standards and reflect the will of the Bulgarian 
people. Over the last 15 years, Bulgaria has established a full 
functioning free-market democracy marked by strong public 
support for full Euro-Atlantic integration.
    Bulgaria entered NATO in March 2004 and is scheduled to 
sign an EU accession agreement in April 2005 leading to full 
membership in 2007. Aside from supporting Euro-Atlantic 
integration, our efforts in Bulgaria are designed to ensure 
stable democratic focus on strengthening local governments, 
civil society, and a free press.
    Bulgaria has a natural route for trafficking in narcotics, 
contraband, and persons. Like many countries in this region, 
Bulgaria suffers from substantial organized crime and 
corruption that threatens democratic development and successful 
Euro-Atlantic integration.
    Reform of the weak judicial system is a pressing need, as 
is greater transparency in public procurement and 
privatizations. Bilateral law enforcement cooperation with the 
United States has expanded significantly over the last 2 years. 
The Embassy now hosts the U.S. Secret Service and the FBI plans 
to open an office early in fiscal year 2005.
    Turkey is a staunch NATO ally and a functioning secular 
democracy with a constitutional government. In an effort to 
meet requirements for EU membership, the government has carried 
out extensive democratic legal reforms during the past year. 
For example, in September 2003, Parliament adopted a new penal 
code, and in May 2004, adopted a new package of constitutional 
amendments. These reforms are designed to crack down on 
torture, on honor killings, and expand freedom of religion and 
association.
    Turkey's made rapid progress in meeting the EU political 
criteria laid out during the Copenhagen summit in 2002. And on 
December 17, 2004, the European Union decided that accession 
talks with Turkey would start in October. The EU's historic 
decision to start these talks is a major success, not only for 
the Turkish people, but we believe for Europe as well.
    Nonetheless, some problems remain. We continue to press 
Turkey to resolve Greek Orthodox church property issues, and to 
open the Greek Orthodox Halki Seminary. Alevis, heterodox 
offshoot of Shi'a Islam, is concerned with discrimination by 
the majority Sunni population and Sunni-run religious affairs 
directorate. And Kurdish rights within general civil rights 
remain a sensitive issue.
    The United States supports Turkey's efforts to implement 
the reforms instituted in order to gain accession to the 
European Union. We continue to urge Turkey to respect fully 
human rights, including freedom of speech and the press, 
freedom of religion, as well as the rule of law. I might note, 
Mr. Chairman, that we were appalled by the violent dispersal of 
demonstrators in Istanbul that we saw on film on Sunday, and 
we've let the Turkish Government know our views quite clearly 
about that.
    Ukraine. One of the most significant events of 2004 was, 
obviously, the Orange Revolution. This was an event marking a 
victory for democracy. The Ukrainian people succeeded in 
overturning a fraudulent Presidential election and achieving a 
final outcome that reflected the will of the voters. Ukraine's 
democratic institutions demonstrated surprising strength in the 
face of persistent attempts by elements within the previous 
government and among oligarchic plans to subvert democratic 
processes.
    When confronted with the allegations of widespread fraud, 
the judicial system ultimately acted in an independent manner. 
The legislative branch behaved responsibly in helping to broker 
a political solution.
    Moldova. On Sunday, Moldova elected a new government. While 
the final results are not yet in, it appears that the governing 
party, the Communist Party, will remain the leading party in 
the country, although not with the numbers that they had 
before. The Organization of Security and Cooperation in Europe 
delegation that was there made a statement that said that the 
election generally complied with international standards that 
voting on election day was generally fair. But they noted, as 
we have noted in our statements and in the statement that the 
U.S. Senate made, that there were severe irregularities during 
the campaign period involving media access issues, harassment 
of opposition, and misuse of administrative resources.
    Georgia. The Rose Revolution of 2003 demonstrated that 
Georgians desire fair elections and good governance, and are 
capable of holding their government accountable. Since the Rose 
Revolution, Georgia has made significant internal reforms to 
fight official corruption, consolidate bureaucracy, and 
increase revenue collection in order to provide better services 
to its own citizens.
    Progress in Georgia is hampered by ongoing separatist 
conflicts in South Ossetia and Abkhazia. The international 
community should stand firm to encourage Georgia to resolve 
these conflicts peacefully. Internal reform, in our view, will 
strengthen the economy and create incentives for separate 
regions to integrate into Georgia.
    Armenia has made significant economic and social progress 
since its independence. However, the flawed Presidential and 
Parliamentary elections of 2003 demonstrate that it has some 
way to go to strengthen its democratic institutions and ensure 
an equitable balance of power between executive, legislative, 
and judicial branches. Armenia needs to take steps to improve 
its poor human rights record. We are providing extensive 
assistance to strengthen the national assembly, the judiciary, 
and local government institutions in Armenia.
    Azerbaijan. The flawed Presidential elections in 2003 
demonstrate that Azerbaijan has far to go to strengthen its 
democratic institutions and ensure an equitable balance of 
power between the various branches of government. We are 
focusing our assistance programs and diplomacy on improving 
election procedures, strengthening Azerbaijan's democratic 
institutions as parliamentary elections approach this coming 
fall.
    These coming elections will be an important test of 
Azerbaijan's process toward democratization. Azerbaijan also 
needs to take steps to improve its poor human rights record. 
Azerbaijan's economic progress in the next year will depend on 
its ability to direct oil funds toward nonoil sector 
development.
    Finally, Russia. Russia is experiencing an erosion of its 
democratic institutions and processes. Especially over the last 
2 years, checks and balances among the branches of government 
have weakened. The Duma offers no meaningful counterweight to 
the executive. National television networks are under state 
control. And democratic values have yet to be inculcated in 
Russia's political culture.
    At the same time, there has been little resistance to this 
situation within Russia. While the electoral process was 
flawed, President Putin was reelected last year with a solid 
majority. Independent polling indicates that as living 
standards improve and the threat of terrorism increases, a 
majority of the population continues to favor order and 
stability above all else. The Russian Government's efforts to 
centralize control have taken advantage of this popular 
sentiment, further postponing the development of democratic 
accountable governance.
    I think, Mr. Chairman, I'll stop at that point and I'll be 
happy to answer any questions about any of the countries or the 
processes in the region.
    [The prepared statement of Ambassador Tefft follows:]

   Parepared Statement of Ambassador John F. Tefft, Deputy Assistant 
Secretary of State for European and Eurasian Affairs, State Department, 
                             Washington, DC

                              INTRODUCTION

    Mr. Chairman, Senators, I am delighted to be with you this 
afternoon to discuss the current state of democracy in the Black Sea 
region and the prospects for further democratic evolution there. While 
we address aspects of this important issue in one way or another 
literally every day at the State Department, occasions for reflecting 
comprehensively on the region in its entirety are rare. So I especially 
value the chance to share my thoughts with you today on where we are 
with U.S. policy toward the countries of the region and where we are 
headed. The topic is certainly timely, with this past Sunday's 
parliamentary elections in Moldova, and the memory of Ukraine's 
dramatic Presidential contest still fresh.

                                OVERVIEW

    The nine nations of the Black Sea region--Romania, Bulgaria, 
Turkey, Ukraine, Moldova, Georgia, Armenia, Azerbaijan, and Russia--are 
diverse and hard to characterize as a group. Geographical proximity and 
overlapping histories have created rivalry and friction as well as 
cooperation and alliance; centrifugal forces impelling countries 
outward compete with a strong pull toward greater regional integration. 
U.S. policy by necessity takes the specific characteristics of each 
country and its unique geopolitical situation into account and deals 
with each accordingly.
    There are some broad commonalities: Black Sea States are all 
members of the Organization of Security and Cooperation in Europe 
(OSCE), and either members of NATO or NATO's Partnership for Peace. 
They belong, together with Greece, Albania, and Serbia-Montenegro, to 
the Organization for Black Sea Economic Cooperation (BSEC). 
Incidentally, we are now considering, in consultation with BSEC 
members, the possibility of U.S. participation as an observer at the 
BSEC.
    Energy transport is one of the strongest links among the Black Sea 
nations. Energy pipelines; existing, (Caspian Pipeline Consortium, Blue 
Stream, Odesa-Brody), under construction, (Baku-Tblisi-Ceyhan) and 
planned (multiple Bosphorus bypass plans) crisscross the region and 
create real opportunities for cooperation and the development of a 
regional dialog. Coordination between energy exporting states and 
transit nations is needed to solve Bosphorus bottlenecks and develop 
efficient solutions to ensure that energy supplies reach the world 
market. The United States has consistently worked toward this goal 
through encouragement of multiple pipelines and export routes.
    But with a closer look, the similarities among these countries 
start to break down: They vary in size from huge (Russia, over 140 
million people; next is Turkey with 70+ million) to rather small 
(Moldova, some 4 million; Armenia, 3 million). They are also at 
different stages of economic development. For example, Turkey, Russia, 
Romania, Bulgaria fall firmly in the World Bank's middle-income 
category, with annual GDP per capita well over $2,000. Others, such as 
Moldova and the Caucasus countries, lag behind with yearly income under 
$1,000 per person. Most of the countries belong to the World Trade 
Organization--Russia, Ukraine, and Azerbaijan are the exceptions. On 
the other end of the economic integration scale, Romania and Bulgaria 
are solid candidates for EU membership this decade; Turkey, already an 
OECD member, is likely to be next after them.
    Geostrategic differences are also striking. Three countries: Turkey 
since the cold war, and Romania and Bulgaria since last year, are NATO 
members; the others, former Republics of the U.S.S.R., belong, however 
loosely, to the Commonwealth of Independent States (CIS). Four of these 
CIS states, Georgia, Ukraine, Azerbaijan, and Moldova, together with 
Uzbekistan, form GUUAM, an organization with projects on law 
enforcement cooperation and development of essential economic 
infrastructure. Last week (March 2) in Chisinau Presidents Saakashvili, 
Yushchenko, and Voronin jointly called for revitalizing GUUAM as 
Moldova assumes chairmanship next month.
    Separatist conflicts impede nation-building and democratization in 
a number of the Black Sea region's countries, and the United States is 
actively engaged in solving those conflicts. Significant differences 
remain between Armenia and Azerbaijan over Nagorno-Karabakh, but 
Presidents Kocharian and Aliyev are committed to a peaceful resolution. 
We support the OSCE Minsk Group's efforts to advance toward a 
settlement there, and are encouraged by discussions over the last year 
toward a negotiated settlement. Transnistrian provocations caused the 
collapse of Moldovan political settlement talks last summer. 
Nevertheless we continue to work with Moldova and OSCE partners, to 
press Russia to work with us and the international community to promote 
progress on settlement in Moldova. In Georgia, we support President 
Saakashvili's goal of reuniting the country, and encourage Georgia to 
resolve the conflicts in South Ossetia and Abkhazia in a peaceful 
manner. We also continue to insist that Russia fulfill its remaining 
Istanbul commitments on the withdrawal of its forces from Moldova and 
on reaching agreement with Georgia on the duration and status of Russia 
forces there. Throughout these protracted conflicts, the United States 
has been consistent in supporting the territorial integrity of 
Azerbaijan, Moldova, and Georgia, as well as of the Russian Federation 
with respect to the Chechen separatist movement.
    These facts provide a context for the discussion of these 
countries' different levels of democratic development as well. Freedom 
House, in its 2005 comparative ranking of the world's countries, found 
two of the Black Sea States (Romania, Bulgaria) meet its standards for 
``Free'' countries, another two (Russia, Azerbaijan) fall so far short 
of those standards that they rated ``Not Free.'' The other five fall in 
between; Freedom House categorizes them as ``Partly Free.'' Our Human 
Rights Report for 2004, just released to Congress on February 28, while 
it does not use such specific categories, also reflects the divergence 
Freedom House found in the democracy and human rights records of these 
countries.
    I'd like to consider democracy and democratization in each of these 
countries, and what the U.S. Government is doing to improve the record.

Romania
    In December 2004 Romania underwent a democratic transition, with 
the candidate representing an alliance of opposition parties winning a 
very close Presidential runoff election. Civil society organizations 
(including some that received U.S. assistance) played a strong role as 
election monitors, in advocating an ``issue-based'' political campaign, 
and in pressing for nonbiased media coverage of the campaign. President 
Basescu is scheduled to meet with President Bush on March 9. The 
leaders of the former goverment, including the former President and 
Prime Minister, now serve in Romania's Parliament.
    Romania believes its location on the Black Sea, its membership in 
NATO (since May 2004), and its prospective membership in the European 
Union (projected for January 2007), leave it well-placed to provide a 
bridge to Europe for the countries of the Caucasus. In particular, the 
Romanians believe they can serve as a model for these democratizing 
countries. To this end, Romania has been active in the Community of 
Democracies initiative, and recently organized an international mission 
to Georgia of NGO and other experts to discuss media freedom, judicial 
reform, and other democracy issues.
    Romania also sees opportunities to reach out to its Black Sea 
neighbors on economic and security issues. Romania is the host country 
for the Southeast Europe Cooperative Initiative (SECI), and is involved 
in outreach efforts to Black Sea littoral and regional states on 
cooperative law enforcement initiatives, including customs and border 
security initiatives, antinarcotics and trafficking-in-persons 
initiatives. The United States has provided assistance for these 
regional, cooperative efforts. We continue to press the Government of 
Romania to promote media freedom and combat corruption.

Bulgaria
    Bulgaria's sixth national elections since 1990 are scheduled for 
June 2005 with a wide, but moderate, political spectrum expected to 
participate. Elections since 1990 have met acceptable standards and 
reflect the will of the Bulgarian people. Over the last 15 years 
Bulgaria has established a fully functioning, free-market democracy, 
marked by strong public support for full Euro-Atlantic integration. 
Bulgaria entered NATO in March 2004, and is scheduled to sign an EU 
accession agreement in April 2005 leading to full membership in 2007. 
Aside from supporting Euro-Atlantic integration, U.S. Government 
efforts to ensure stable democratic focus on strengthening local 
governments, civil society, and a free press.
    Bulgaria is a natural route for trafficking in narcotics, 
contraband, and persons. Like many countries in the region, Bulgaria 
suffers from substantial organized crime and corruption that threatens 
democratic development and successful Euro-Atlantic integration. Reform 
of the weak judicial system is a pressing need, as is greater 
transparency in public procurement and privatizations.
    Bilateral law enforcement cooperation with the United States has 
expanded significantly over the past 2 years; the Embassy now hosts the 
U.S. Secret Service, and the Federal Bureau of Investigation plans to 
open an office in early FY 2005. The U.S. Government has assisted in 
legal reforms, including legislation to combat trafficking in persons, 
witness protection, antimoney laundering and regulation of public 
procurement. An important USAID legacy mechanism is the National 
Institute of Justice (NIJ), which opened last year and is already one 
of the leading institutions in Eastern Europe for training magistrates. 
Ambassador Pardew is vocal about the need for the Bulgarian Government 
to face these challenges; just this week the Ambassador publicly 
expressed support for a declaration by 14 NGOs calling for all 
political forces to commit themselves to judicial reform.
    On the border between NATO/EU countries and Eurasia, Bulgaria sees 
itself playing a significant role in the region. Bulgaria considers 
democratic reform and development of market economies and free trade in 
the region, and good neighborly relations with countries to its east, 
as important to its own national interest, placing a priority on the 
development of NATO's role in the regional security system.

Turkey
    Turkey, a staunch NATO ally, is a functioning secular democracy 
with a constitutional government. In an effort to meet the requirements 
for EU membership, the Government carried out extensive democratic 
legal reforms during this past year. For example, in September 2003 
Parliament adopted a new Penal Code, and in May 2004 adopted a new 
package of constitutional amendments. These reforms were designed to 
crack down on torture and ``honor killings,'' and expand freedom of 
religion and association.
    Turkey has made rapid progress in meeting the EU political criteria 
laid out during the Copenhagen Summit in 2002, and on December 17, 
2004, the European Union decided that accession talks with Turkey would 
start in October this year. The European Union's historic decision to 
start accession talks for Turkey is a major success not only for the 
Turkish people, but for Europe as well.
    Nonetheless, some problems remain. We continue to press Turkey to 
resolve Greek Orthodox Church property issues and open the Greek 
Orthodox Halki Seminary. Alevis, a heterodox offshoot of Shi'a Islam, 
is concerned with discrimination by the majority Sunni population and 
Sunni-run Religious Affairs Directorate, and Kurdish rights within 
general civil rights remain a sensitive issue.
    The United States supports Turkey's efforts to implement the 
reforms instituted in order to gain accession to the European Union. We 
continue to urge full respect for human rights, including freedom of 
speech and the press, freedom of religion, as well as rule of law.

Ukraine
    In one of the most significant events of 2004, an event marking a 
victory for democracy, the Ukrainian people succeeded in overturning a 
fraudulent Presidential election and achieving a final outcome that 
reflected the will of the voters. Ukraine's democratic institutions 
demonstrated surprising strength in the face of persistent attempts by 
elements within the previous government and among oligarchic clans to 
subvert democratic processes. When confronted with allegations of 
widespread fraud, the judicial system ultimately acted in an 
independent manner, and the legislative branch behaved responsibly in 
helping to broker a political solution to the crisis. Many journalists 
at state- and oligarch-owned media enterprises stopped taking 
instructions from the Presidential administration and started to report 
news accurately and objectively. NGOs and civil society organizations 
took the lead in organizing peaceful demonstrations in support of a 
democratic outcome.
    It is not true, as some have said, that the United States funded or 
otherwise supported any candidate or party in the election. However, 
over a decade of U.S. assistance for a democratic process was a 
contributing factor to the positive outcome. Over a period of many 
months, the United States and our European allies repeatedly advised 
Ukrainian authorities, publicly and privately, that we were watching 
the election closely and considered it a test of Ukraine's commitment 
to democracy. The United States funded local civil society groups to 
conduct voter education and get-out-the-vote campaigns. We supported 
the work of independent media to improve coverage of campaign issues. 
We provided nonpartisan training to political parties and leaders, 
trained election officials and observers, and more. Our election-
related assistance to Ukraine was approximately $18 million. Of 
particular note, the United States funded what we believe was an 
unprecedented election-observer effort, domestic and international, 
which turned out to be critical in spotlighting electoral fraud, 
particularly in the November 21 second round.
    As Yushchenko and his team turn to the task of governing, they face 
a great many challenges. The ``Orange Revolution'' spurred a reaction 
in eastern and southern Ukraine, where some officials began speaking of 
federation, autonomy, and even secession and independence. This would 
be disastrous for Ukraine and for the region. Fortunately, then-
President Kuchma summoned these governors and ordered them to cease and 
desist. Nevertheless, there is disaffection in Russian-speaking parts 
of Ukraine which Yushchenko needs to address. He also has his work cut 
out for him in combating endemic corruption, reforming the economy, 
consolidating democratic reforms and promoting human rights. Managing 
relations with Russia will also be critical. We look forward to 
President Yushchenko's visit to the United States early next month.

Moldova
    Moldova's campaign period in advance of the March 6 parliamentary 
elections has been blemished with irregularities, such as media access 
issues, harassment of opposition, and misuse of administrative 
resources. However, international criticism, including the Department's 
engagement and a sense-of-the-Senate resolution, prior to election day 
positively encouraged the Moldovan Government to take corrective 
measures. The United States has provided some $1.7 million for 
election-related assistance in the past year to support development of 
the Moldovan electoral administration and legal framework, independent 
media, civic involvement, nonpartisan political party training, and 
election monitoring. Again, our focus is on a free and fair electoral 
process, not on any particular party or candidate. The results of 
Sunday's election show to what extent the Moldovan leadership's late 
corrective measures to make the campaign more fair allowed OSCE/ODIHR 
to assess the elections as generally meeting international standards. 
(Note: Oral testimony will update the subcommittee on the results of 
the March 6 elections.)
    Moldova's foreign policy priority is to integrate with the European 
Union, as manifested by its recent conclusion of an EU Action Plan. We 
support Moldova's efforts toward this goal, and we would hope that its 
participation in the GUUAM regional group could be deepened even 
further after Moldova assumes the rotating Presidency later this 
spring.
    The repressive Transnistrian separatists are an impediment to 
regional stability and democracy. We are therefore actively looking for 
ways to resolve the Transnistria conflict in a manner that would 
strengthen Moldova's territorial integrity and also be supported by its 
people and have international credibility. We believe enhanced 
international participation could give new impetus to the stalled 
negotiation process, and are consulting with our European Union, OSCE, 
Ukrainian, and Russian partners as to the most effective way forward. 
Equally important, Moldova, the United States, and our NATO allies 
continue to press Russia to fulfill its commitments made at the 1999 
OSCE Summit in Istanbul to complete the withdrawal of its military 
forces from Moldova.

Georgia
    The Rose Revolution of 2003 demonstrated that Georgians desire fair 
elections and good governance, and are capable of holding their 
government accountable. Since the Rose Revolution, Georgia has made 
significant internal reforms to fight official corruption, consolidate 
bureaucracy and increase revenue collection in order to provide better 
services to its own citizens.
    Progress in Georgia is hampered by ongoing separatist conflicts in 
South Ossetia and Abkhazia; the international community should stand 
firm to encourage Georgia to resolve these conflicts peacefully. 
Internal reform will strengthen the economy and create incentives for 
the separatist regions to integrate into Georgia.
    Georgia clearly aspires to join the Euro-Atlantic institutions; the 
United States welcomes the EU's Wider Europe program in the South 
Caucasus and encourages Europe to work closely with Georgia and its 
neighbors in support of civil society, human rights, and democratic 
development. We also continue to support talks between Georgia and 
Russia on the 1999 Istanbul commitments to reach agreement on the 
status and duration of remaining Russian bases in Georgia.

Armenia
    Armenia has made significant economic and social progress since its 
independence; however, the flawed Presidential and parliamentary 
elections of 2003 demonstrate that it has some way to go to strengthen 
its democratic institutions and ensure an equitable balance of powers 
between the executive, legislative, and judicial branches. Armenia 
needs to take steps to improve its poor human rights record. The United 
States is providing extensive assistance to strengthen the National 
Assembly, the judiciary and local government institutions in Armenia.
    Further reform is hampered by Armenia's relatively isolated 
position and the ongoing Nagorno-Karabakh conflict, which has been an 
enormous drain on the government's resources for over 10 years.
    We welcome Armenia's attempt to work within the BSEC to expand its 
economic and other ties to the region, including with Turkey.

Azerbaijan
    The flawed Presidential elections of 2003 demonstrate that 
Azerbaijan has far to go to strengthen its democratic institutions and 
ensure an equitable balance of powers between the executive, 
legislative, and judicial branches. We are focusing on assistance 
programs and diplomacy on improving election procedures and 
strengthening Azerbaijan's democratic institutions as parliamentary 
elections approach this fall. These elections will be an important test 
of Azerbaijan's progress toward democratization. Azerbaijan also needs 
to take steps to improve its poor human rights record. Azerbaijan's 
economic progress in the next year will depend on its ability to direct 
oil funds toward nonoil sector development.
    Political and economic reform is hampered by the ongoing Nagorno-
Karabakh conflict, as in Armenia, an enormous drain on the government's 
resources for over 10 years.
    Azerbaijan continues to offer extensive and invaluable support to 
the United States for the Global War on Terror, including, but not 
limited to, blanket overflight rights, the use of Azerbaijan military 
bases, information sharing, and law enforcement cooperation.
    We welcome Azerbaijanis' attempt to work within the BSEC to expand 
its economic and other ties to the region.

Russia
    Russia is experiencing an erosion of its democratic institutions 
and processes. Especially over the past 2 years, checks and balances 
among the branches of government have weakened. The Duma offers no 
meaningful counterweight to the executive, national television networks 
are under state control, and democratic values have yet to be 
inculcated in Russia's political culture. At the same time, there has 
been little resistance to this situation within Russia. While the 
electoral process was flawed, President Putin was re-elected last year 
with a solid majority. Independent polling indicates that as living 
standards improve and the threat of terrorism increases, a majority of 
the population continues to favor order and stability above all else. 
The Russian Government's efforts to centralize control have taken 
advantage of this popular sentiment, further postponing the development 
of democratic, accountable governance.
    Despite some indications that the situation in Chechnya has 
improved, basic security is lacking as terrorists and insurgents 
continue to battle pro-Moscow Chechens and federal forces, and human 
rights violations continue with impunity. A flawed Presidential 
election in August 2004 did not advance a political solution to the 
conflict. Terrorist attacks at Beslan and elsewhere pose a threat to 
the region. Conflict appears to be spreading across the North Caucasus, 
due to a combination of terrorist activities, religious extremism, 
criminality, and the weakness of state structures in the region. As the 
situation on the ground allows, we will look for opportunities to 
provide development assistance to people in the North Caucasus.
    Russia and the United States have shared interests in stability and 
economic development in the Black Sea region but differ over how these 
goals should be interpreted and pursued.
    We both want to fight weapons trafficking, narcotics trafficking, 
organized crime, money laundering, and terrorist organizations in the 
Black Sea region. To achieve this goal, the United States wants to 
encourage regional stability. Russia shares the United States desire 
for stability, but appears to interpret stability in a fundamentally 
different way. Russia has been critical of the programs the European 
Union is pursuing under its Neighborhood Policy to create a string of 
well-governed states on the EU's border and that in the Black Sea 
region, which explicitly includes Georgia and Ukraine.
    Russia defines stability as preservation of the status quo, with 
regimes it knows well. Russian support for separatists in other 
countries appears to be means, in part, of maintaining levers of 
influence in Moldova and Georgia. For the same reason, Russia has been 
slow to close its remaining bases in Georgia and remove its troops from 
Transnistria.
    United States and Russian goals overlap more closely on the 
practical matter of shutting down transshipment and smuggling routes on 
the Black Sea. The United States supports and encourages Russia's 
participation in the Black Sea Force, its cooperation with coast guards 
of littoral states, and its participation in Operation Active Endeavor.
    Russian and United States views also overlap on the issue of 
Russia's Black Sea Fleet as an important element in regional security. 
The United States encourages continued Russian-Ukrainian cooperation 
that will allow Russia to lease port facilities at Sevastopol at least 
through the current agreement's end in 2017.
    The United States and Russia have a shared interest in economic 
development and trade, in particular as concerns projects to bring 
Russian and Caspian Basin oil and gas to European and world markets. We 
hope President Putin's December 2004 visit to Turkey and President 
Erdogan's visit to Russia the following month will help advance such 
cooperation. At the same time, conflicts over the direction of the 
Odesa-Brody pipeline and other projects demonstrate that tensions exist 
over questions of whose oil and gas will get to market over whose 
territory.
    Moscow continues to react strongly over a possible United States 
military role in the region. This can be seen particularly in the 
pressure that Russia has placed on Georgia to agree to a ``no foreign 
bases'' clause in a Georgia Russia Framework Treaty, and it can be seen 
also in Russia's displeasure over the United States Georgia Train and 
Equip Program (GTEP) and Sustainment and Stability Operations Program 
(SSOP) to train Georgian forces. We have made clear to Moscow at very 
senior levels that we have no plans for establishing United States 
bases in Georgia. Russia's concerns are likely to increase as Ukraine 
moves closer to NATO.
    We are also urging Russia to stop obstructing an Organization of 
Security Cooperation in Europe (OSCE) border monitoring operation along 
the Chechnya portion of the Russian-Georgian border. We believe this 
monitoring operation has played an important role in deterring the 
possible movement of international terrorists and Chechen fighters 
between Russia and Georgia.

Assistance
    Finally a word on U.S. assistance programs to the region. U.S. 
Goverment assistance targets enhancing regional cooperation and 
development as well as to support reform bilaterally. Our support for 
the GUUAM organization is enabling these countries to cooperate in law 
enforcement and harmonize their trade and transportation regimes. The 
Southeast European Cooperative Initiative (SECI), which includes 
Bulgaria, Romania, and Moldova (in addition to other countries that are 
not ``Black Sea States''), serves as a regional assistance model for 
GUUAM projects. Since 2000, SECI has promoted cross-border cooperation 
in Southeast Europe in the fight against organized crime, as well as 
reform and harmonization of customs services to promote economic 
development and facilitate trade.
    Democracy assistance is key to our broader bilateral assistance 
programs in this region that, with the exception of Turkey, are funded 
through the Support for East European Democracy (SEED) and FREEDOM 
Support Acts. Under these accounts we will be providing approximately 
$126 million in FY 2005 to support civil society, access to 
information, pluralistic political processes, local governance and rule 
of law in these countries.
    Political changes in Georgia and Ukraine in the past year reflect a 
desire by these countries--and their people--to establish themselves as 
democratic market economies. Our assistance continues to support their 
efforts to combat corruption and integrate them into the world economy, 
including the Black Sea region.
    I welcome your comments and questions.

    Senator Allen. Thank you, Mr. Ambassador. And that was a 
good survey of the region; an overview. The purpose of having 
such hearings is, hopefully, to educate the American public as 
to this region. And one thing that one understands by listening 
to all of this, and we'll get it from our second panel, but a 
study of history, all these countries are not the same. They're 
individual, they have their own sovereignty, their own 
heritage, languages, and customs. And each one has its own 
unique needs. Some are models for others to emulate, but the 
ones who will emulate it will do it in their own way, hopefully 
in their own way, creating more just and free societies.
    One thing that ends up--and just trying to find some 
crosscurrents or threads and commonality--and you finished with 
Russia. But Russia--beyond Russia's own problems in their own 
country is the question of their troops in places such as 
Moldova and in Georgia. And you were mentioning the recent 
elections in Moldova. One issue which remains there, which is 
an issue for Romanians, for Moldovans, for Ukrainians as well, 
is the Russian presence there, but also the Transnistrian 
region.
    So, if you could share with us, the audience and this 
committee, as part of the record: A, what has President Bush 
said, and hopefully in a very strong way, to President Putin 
when they were meeting in Bratislava, about the concepts, not 
just of democracy and human rights, which is very important, 
but getting their troops out of Georgia and Moldova, as well as 
what are we doing on this Transnistrian issue, which is an area 
from what I can understand, I have not been there, but what I 
can understand is, it seems to be a lawless area, with 
everything from trafficking in drugs to humans to arms as well. 
And so long as that haven for such activity, criminal behavior 
as well as potentially terrorists acquiring weapons, this does 
need to be a concern to us.
    So if you could--those are two large areas, issues, but I 
think they're related to the Russians' involvement in some of 
these places.
    Ambassador Tefft. Thank you. I was in Moldova in November 
myself and had an opportunity to talk to not only all of the 
political parties there, but with a number of others in the 
society. We have directed our efforts in Moldova both at trying 
to encourage a democratic election--I've talked about that in 
my remarks--but also in trying to be supportive of a process 
leading to a solution to the Transnistrian problem.
    We are hopeful that this election that's just taken place, 
will act as an incentive to try to bring everyone together in a 
new effort to try to solve that problem. We have made this an 
issue with the Russians in a number of meetings. I believe it 
was raised in Bratislava. Certainly Secretary Rice has raised 
this in her first meetings with Foreign Minister Lavrov.
    We think it's high time that a solution be found. We think 
it's high time that the Russian troops be withdrawn, and we 
have made that very, very clear to them.
    Senator Allen. What's their reaction?
    Ambassador Tefft. I think at this point the--we're still 
waiting.
    Senator Allen. Do they--in other words, do they sit there 
impassively listening politely----
    Ambassador Tefft. They----
    Senator Allen [continuing]. Or is there a reaction?
    Ambassador Tefft. Their claim is that they still support a 
solution to the problem, that they still are honoring the 
commitments. You know that at NATO, at the NATO Russia summit 
last December, the communique had the Russians agreeing to 
withdraw their troops under the Istanbul Commitments. Our view 
is it's high time. Let's get on with the process.
    Ambassador Steve Mann, who is our negotiator for what we 
call the frozen conflicts, was in Moscow last Friday at the 
invitation of the Russians to begin to talk about these issues. 
We hope this week, Senator, that Foreign Minister Tarasyuk of 
the Ukraine, who will be here at the invitation of Secretary 
Rice, that we will be able to talk to him about not only 
enforcing the borders on the Transnistrian side with Ukraine, 
to make sure that some of the corruption and the smuggling 
that's been going on for years has stopped, but also talk to 
the Ukrainians, who are also part of the mediation effort 
there, to see how much they will be able to do to push this 
process forward.
    Finally, I would note that the United States, and I think 
the European Union, are prepared to join in the negotiations as 
observers if that's what the parties decide. But we're going to 
try to make a major effort to see if we can get this process 
going again, and we'll put as much pressure as we can on the 
Russians to try to get some results.
    Senator Allen. Thank you. And we'll be watching this. It's 
not going to get resolved quickly, but it's something that 
needs to stay on--right at the top of the list, because of the 
destabilizing impact of this narrow, small area. But 
nevertheless it is in a fairly crucial position to affect all 
those borders in that region and beyond there as well.
    Now, the Russians have agreed to this convention of forces 
in Europe to pull their troops out of Moldova. Now what about--
and also agreed to pull them out of Georgia--what has been 
stated to the Russians as far as their troops and bases in 
Georgia?
    Ambassador Tefft. We feel the same, that they should be 
withdrawn as quickly as we can--as they can. I know that 
Foreign Minister Lavrov was in Tbilisi just a few weeks ago. 
One of the issues they talked about was just this, the question 
of Russian Forces there. My understanding is that these 
discussions continue. There is some hope that they could get 
some kind of an agreement on this perhaps before President 
Saakashvili goes to Moscow on May 9 for the victory day 
celebrations that the Russians are going to hold.
    I think no one has any illusions about how hard this is, 
but it is a matter of discussion, and we urge both sides to try 
to get an agreement on this.
    Senator Allen. Do you find the Russians willing to do this 
or are they--it strikes me they made an agreement and, at best, 
you could say they're dragging their feet.
    Ambassador Tefft. I personally would agree with you, 
Senator. I think----
    Senator Allen. What do you think their motivation is? Just 
drag their feet, just----
    Ambassador Tefft. I think there are people----
    Senator Allen [continuing]. Troops in there----
    Ambassador Tefft [continuing]. Within the Russian system 
who are not only--who not only support the continued stationing 
of the troops, but who are clearly profiting from the 
situations that exist where these troops are, there where the 
frozen--profiting from the frozen conflicts in a sense.
    This is going to take leadership on the part of President 
Putin to cut through this, to make the decisions, and to 
enforce the decisions about getting these troops withdrawn. I 
think only that level is going to be able to get the results 
that we want.
    Senator Allen. Well, reading his actions, do you actually 
think he does so desire to keep those commitments?
    Ambassador Tefft. I hope so.
    Senator Allen. You hope so? OK. You have to be an 
Ambassador and diplomatic. I understand. We all can translate 
what that means.
    Finally, have you done any assessment on--and I, as I said 
at the outset on the bases, moving any of our assets or bases 
or capabilities to the Black Sea area, say moving some of them 
from Germany to Bulgaria or Romania? Have you--from Department 
of State--granted this is mostly a military logistics platform, 
power projection issue, although these issues do have 
diplomatic impacts or implications. Could you share with us 
your insight on that?
    Ambassador Tefft. Yes, sir. My colleagues in the Department 
are involved in interagency discussions about this issue. I 
think Bob Bradke, my colleague in the European Bureau, appeared 
before the group last week and addressed this.
    I think, fundamentally, we're not thinking of establishing 
new bases per se. There's not--we're not looking at new 
Rammsteins in that sense.
    Senator Allen. Right.
    Ambassador Tefft. What we are interested in is looking at 
enhanced training, joint exercises with our allies in 
Southeastern Europe. We're in the midst of some consultations, 
not only within the U.S. Government but with these allies. Any 
future announcement, I'm told, will really depend on the 
outcome of those discussions. DOD really is the one to talk to 
about the financing of this, obviously, because it's going to 
be expensive.
    There's been discussion. I think you've seen some of the 
interviews that General Jones has given. I think those reflect 
some of the thinking in the U.S. military. State is playing the 
role in the interagency process on this and trying to manage 
the diplomatic side of this, but it's an ongoing process, 
Senator.
    Senator Allen. Thank you, Mr. Ambassador. I also do want to 
commend General Jones. I think he's doing an outstanding job as 
a military leader, but also understanding the diplomatic and 
cultural aspects of these various countries and their people. 
And I want to thank you also, Mr. Ambassador, for appearing 
before this subcommittee today. There may be questions that are 
posed by members because we have several meetings going on and 
votes this afternoon. I hope you'll be able to respond to those 
questions. And with that, thank you for your testimony and your 
leadership for our country.
    Ambassador Tefft. Thank you, sir. We'll be happy to answer 
any questions that come up.
    Senator Allen. Thank you. I'd like to have the second panel 
please come forward. The room will please come to order. I 
understand for our friends from Turkey there's translation 
going on in the back, and so some people wonder what the 
murmuring is. It's not rudeness. It's simply translation, and 
we're very happy to have our friends from Turkey with us.
    Now, our second panel of witnesses includes Ms. Zeyno 
Baran, Mr. Bruce Jackson, and Mr. Vladimir Socor. Each has 
extensive knowledge of the Black Sea region and the challenges 
that it'll face in the coming years. I'm going to give everyone 
a background on each of you. It could be very long and I could 
go on for hours on each of you.
    Let me do it in this order. Ms. Zeyno Baran first is the 
director of the International Security and Energy Programs at 
the Nixon Center. Her current projects include devising 
strategies to thwart the spread of radical Islamist ideology in 
Eurasia; assessing the impact of the Georgian and the Ukrainian 
revolutions on Central Eurasian countries; and engaging the 
leaderships, civil societies, representatives, and opposition 
forces of these countries to encourage democratic reform; and 
also contributing to the shaping of a new trans-Atlantic energy 
dialog on the Caspian and Black Sea regions.
    Previously--this is not the first that Ms. Baran has been 
involved in this region--she was the director of the Caucasus 
Project at the Center for Strategic and International Studies 
at CIS. In 1998, Ms. Baran established the Georgia Forum, at 
which time--at that time was a creation--was the only program 
in the United States with a focus on this strategic country of 
Georgia and its relations with the United States and Russian.
    Ms. Baran also worked on a Caspian and Black Sea oil and 
gas pipeline project since 1996, and frequently travels to the 
region. Ms. Baran, welcome.
    Bruce Jackson is the founder and president of the Project 
on Transitional Democracies. I've known Mr. Jackson since the 
days I was Governor when he was advocating the expansion of 
NATO countries to Poland, the Czech Republic, and Hungary, and 
I became good friends with him back then. And over the years we 
have worked together on the expansion of NATO, which also gets 
European Union admission as well. And we've seen that spread of 
freedom and how those countries--our previous witness, Mr. 
Tefft, was Ambassador to Lithuania and those countries are good 
friends, true allies, not just philosophically, but also with 
armaments and assistance in our war on terror, particularly in 
Iraq and Afghanistan.
    Mr. Jackson did serve in the U.S. Army as a military 
intelligence officer back in 1979 to 1990. The present project 
that he's working on is to accelerate the pace of reform in the 
post-1989 democracies and integrating them into the Euro-
Atlantic institutions, which is perfect. He's been doing that 
for decades.
    He also served as the president of the U.S. Committee on 
NATO back in the 1990s until 2003 promoting the expansion of 
NATO and, obviously, strengthening the ties between our country 
and the people of Europe.
    Vladimir Socor is a senior fellow and longtime senior 
analyst with the Jamestown Foundation, great name of an 
organization, need to really use 2007, the 400th anniversary of 
the founding of Jamestown somehow for enhancing your visibility 
and those wonderful principles. Mr. Socor formerly served as a 
senior research analyst with Radio Free Europe, Radio Liberty 
in Munich, and as a specialist in the non-Russian former 
Republics of the U.S.S.R., CIS affairs, and ethnic conflicts.
    Welcome to all of our witnesses. Ms. Baran being the 
courteous one is pointing. Did you--have you all huddled over 
there and determined you wanted to have an order of testimony? 
If so--I'm going to let--there's a clock here for your huddle 
here. I don't mind doing it in the order that you all are 
presented on this, which is Bruce Jackson, Vladimir Socor, and 
Ms. Baran, if you want to do it that way. You probably--were 
you all prepared to do it that way?
    Mr. Jackson. Yes, sir.
    Senator Allen. We'll run the play that way. Mr. Jackson, 
please proceed.

STATEMENT OF BRUCE JACKSON, PRESIDENT, PROJECT ON TRANSITIONAL 
                   DEMOCRACIES, WASHINGTON DC

    Mr. Jackson. Thank you, Mr. Chairman, and keeping with your 
injunction to summarize our prepared testimony, I'll try to run 
through the big picture here.
    First, what is the Black Sea and why does it matter to this 
committee? Second, how are the states doing? And third, what 
should be the policy of the United States as we look forward?
    I think the first major point is, this is a region in a 
region of Europe. Classically, it's been defined by the 
competitions between empires, largely Turkey, the Ottoman 
Empire, and Russia. The three middle states that we are so 
proud of today, Romania, Bulgaria, and Ukraine, have 
traditionally sought alliances within that region and usually 
tended toward Europe to offset the difficulties of the region. 
And the four smaller states, Moldova and the three states of 
the South Caucasus, lie essentially right down the seam of the 
region where the frozen conflicts lie, and they tend to look at 
Europe enviously. They tend to fear the actions of the great 
powers to their north and to their south, and actually Persia 
to their southeast. And they tend to be bloodied by every 
change that happens along this tectonic place.
    But it seems to me that there are six reasons that make 
this region incredibly important to the United States today. 
For centuries, this region has been the entry point to the 
broader Middle East, and every European power has understood 
that the nation that controlled the Black Sea can control the 
most important real estate in the Middle East. If we are to be 
successful in our effort to support democracy in the broader 
Middle East, we have to build a secure and prosperous Black Sea 
system first.
    Second, the Black Sea was traditionally the beginning of 
the Silk Road. While we're not interested in spices and silks 
these days, we are interested in the energy resources for 
Europe. Today they import 50 percent of their oil. Tomorrow it 
will be 70 percent. That comes from the Caspian basins and the 
Black Sea is their access to that oil.
    The Black Sea region is already a part of Europe. As 
Ambassador Tefft laid out, they are coming into the NATO and 
the European Union. This is already part of our community and 
was recognized as such at the Istanbul summit.
    Fourth, it's not only about interests, it's also about 
values. Obviously, the events, as you have said, in Ukraine and 
in Georgia inspired the President's second inaugural address 
and his recent speech in Bratislava. Without a doubt the most 
democratic changes are occurring in this part of the Euro-
Atlantic.
    But it is not just our hopes, it is also our fears that 
draw us to this region. This belt of frozen conflicts that run 
from Transnistria to Nagorno Karabakh are the most dangerous 
elements of what's left of the destruction or the collapse of 
the Soviet Empire. This is where transnational crime has found 
a home. This is where criminal enterprises flourish. This is 
where people who would export weapons and technology to our 
enemies continue to prosper.
    And finally, this is--I had an opportunity to testify 
before this committee before about Russia--but this is where 
Russia, the most negative expressions of its foreign policy 
exist. And suffice it to say whether we are just intent on 
protecting democracies from foreign influence or we care about 
Russia is doing to its own people, we must look at this region 
to answer those questions.
    So the broad view is the Black Sea is where--is a knife 
edge of history where the forces of reactionary politics, 
separatism, ethnic historical Russian imperial aspirations and 
criminal interests are doing battle with the people that see a 
liberal and European future based on shared security and the 
vision of a European Union.
    How this turns out is of great consequence to the United 
States, and not only will it affect how we conduct democratic 
change or support democratic change in the greater Middle East 
and protect the energy security of Europe, but if we fail in 
this regard to build a European system here, the lives of a 
quarter of a billion Europeans will be nastier, more brutish, 
and inevitably shorter. It matters to people. Almost one-third 
of the Euro-Atlantic community lives in this region.
    Now, in looking--Ambassador Tefft has gone through these 
nations, so I'll just skip over and highlight the factors where 
we're being successful and where we're being retard in our 
progress.
    Romania and Bulgaria are clearly the two great success 
stories. What continues to retard them is deeply entrenched 
corruption and a compromised judiciary. The great news is the 
election of President Basescu in Romania. He is committed to a 
program of comprehensive reform. Incidentally, he is also the 
most eloquent advocate of a Black Sea strategy for the West 
that would make the Black Sea a second Mediterranean, with 
everything that means.
    Turkey, obviously, has achieved a historic milestone at the 
end of December, but frankly the trends there have been 
negative since then. Turkey was complicit in blocking NATO 
coming into the Black Sea last June with their surveillance 
mission. It has broken off its relations with Israel and the 
strategic alliance. It has not been helpful in the solution in 
Nagorno Karabakh. And it is entering a period clearly--it is 
dangerous for Turkey, and I think the Ambassador was correct to 
draw attention to the really brutal attack on women that 
occurred the other day on Sunday.
    I think we can hope that the negative trend in Turkey is 
really related to the turmoil in the Middle East and the 
difficulty a secular Islamic state has in integrating into 
Europe, and it is not a reaction to the appearance of 
democracy. But still, Turkey is entering a dangerous period 
that we're going to have to pay careful attention to.
    Obviously the story of Ukraine is well known. I think the 
point for this committee is Ukraine is going to have to build a 
nation at the same time they're trying to build a democracy, 
and that's going to be awfully difficult.
    I think that two things we have to do is, basically, the 
United States and our European allies must bring their entire 
diplomatic and economic power to ensure that Russia or criminal 
groups emboldened by Russia do not attempt to undermine the 
Yushchenko government in its first critical year.
    Georgia. I think in your remarks you referred to many of 
the negative forces that exert themselves on Georgia, the 
persistence of Russian bases, and the attempt by Russia to 
close the border monitoring operations that protects Georgia 
and peacekeeping operations of the OSCE. I think the good news 
is that the Rose Revolution has been strong enough to withstand 
this, and this is one of the extraordinary success stories. It 
seems to me that if democracies could be compared to sports 
teams, this would be the 1980 Olympic hockey team. They 
shouldn't be winning, but they keep winning, and they have the 
scrappiness that we associated with the revolutionaries of 
1989, and they are completely committed, and I think it's a 
great story.
    The smaller states, Moldova, Azerbaijan, and Armenia, 
frankly retain more of the characteristics of post-Soviet 
autocracies than they do of emerging European democracies. They 
are lagging behind. The factors that retard them are the 
persistence of frozen conflicts on their territories and the 
negative effect these conflicts have on their economic 
development and domestic politics.
    It seems to me, in sum, what we are talking about here is a 
special class of democracies which are torn between the desire 
of their peoples for a European future and the lingering grip 
of a brutal past. This region of Europe is a place where 
democracy is still at risk.
    It seems to me that there are six things that we can do to 
support the new democracies, to dissuade or deter foreign 
powers from intervening in their development, and to ensure 
that the Euro-Atlantic institutions they seek remain open to 
them.
    First, we must accelerate the leading democracies of the 
region. The integration of Romania and Bulgaria into the 
European Union on January 1, 2007, would convey the possibility 
of Europe to all the other states of the region. I think the 
United States can insist in that by pushing hard for judicial 
reform and strict standards of conduct and also making the 
long-delayed decision about repositioning U.S. bases. I think 
the offer of the basing at Constanza in Romania is an offer 
that should be accepted, and nothing could make more clear that 
the United States shares the view of the European Union that 
security and stability in the Black Sea is essential for Euro-
Atlantic security than this decision.
    Second, we have to reform and adapt our institutions for 
the Black Sea. Both NATO and OSCE are not functioning well, one 
because it's been blocked, the other because it's been 
eviscerated by Russian veto.
    The institutions of the region, the GUUAM initiative that 
was referred to is confused, and the Black Sea Economic 
Cooperation Council is largely moribund. As a consequence, we 
should engage the new leaders of the region, President 
Saakashvili, President Basescu, and President Yushchenko, on 
the formation of new structures for this region, as we did in 
the Baltic Charter and in previous times where democracy has 
reached a new area.
    Third, we must confront both Russia and Turkey when they're 
acting in a negative manner. What we hope to accomplish cannot 
be accomplished unless we make clear where conduct goes beyond 
the acceptable. This is a question of frankness. Just because 
Russian officials become peevish when we point out that poison 
used on Yushchenko came from Russia and the plastique for the 
car bomb in Gori came from Russia doesn't mean we should ignore 
this conduct. And just because a discussion of the Ottoman 
treatment of the Armenian population in the early parts of the 
last century is a painful issue, it does not mean that coming 
to terms with history should not be discussed between 
democratic allies. If we are to succeed where democracy is at 
risk, we must be clear in what we say and what we do.
    Fourth, we must prioritize the frozen conflicts as you said 
in your opening remarks, beginning with the conflict in 
Transnistria. With the help of Ukraine, we can end the criminal 
enterprise in Transnistria and the successionist conflict with 
the constitutional government in Chisinau.
    In Nagorno Karabakh, we must press Azerbaijan and Armenia 
back to serious negotiations and force them to begin where they 
left off at the Key West Accords in 2001. And most importantly, 
where leaders of the region offer a peace plan, we must 
basically embrace it. President Misha Saakashvili offered an 
enlightened peace plan for South Ossetia, which was greeted by 
resounding silence both in Brussels and here. That shouldn't 
happen.
    Fifth, this is an area where we're going to need to enhance 
and continue the same cooperation we developed, with the 
European Union in the 10 years in the Balkans, of a close 
partnership with the European Union. Both the European Union 
and the United States have democracy support programs for the 
Black Sea region, but there is no formal coordination as yet, 
and that needs to improve.
    And also our--we have to challenge our NGOs that are funded 
by bills coming through this committee to do more than just do 
elections. Civic society, parliamentary opposition, the growth 
of civic society is essential for the early years of these new 
democracies.
    Finally, we have to focus on Ukraine. For better or for 
worse, the extent and character of democracy in the Black Sea 
region will be defined by whether democracy in Ukraine succeeds 
or fails. Without a democratic Ukraine, peace in Moldova will 
remain elusive and the democracies in the South Caucasus will 
be isolated. If the Orange Revolution succeeds and European 
institutions remain open, then all the states of the Black Sea 
will someday have a place in Europe, including at some point, 
Russia.
    So, in conclusion, sir, what I believe is occurring around 
the Black Sea is the beginning of the final phase of a Europe 
whole and free. Over the 5 years remaining in this decade, I 
think the rapid democratic transformation of Central, then 
Eastern, now Southeastern Europe, will come to a conclusion and 
a new, larger community of Euro-Atlantic democracies will 
result.
    While the democratic change is ultimately their 
responsibility, the United States has a significant role to 
play in supporting and protecting these young democracies in 
their early years. How well we play this role will affect the 
lives of tens of millions of people and will quite literally 
shape the future of the West.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jackson follows:]

  Prepared Statement of Bruce Pitcairn Jackson, President, Project on 
                Transitional Democracies, Washington, DC

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify before you on the state of democracy in the 
Black Sea region and the possibilities which the vast democratic 
transformation of this region presents for U.S. policy. I would like to 
discuss three major questions:
    (1) What is the Black Sea region and why should developments there 
command the attention of this committee and of U.S. policymakers?
    (2) Where are the states of the Black Sea region in the development 
of democratic governance and what factors retard development of a free 
and prosperous civil society in these states?
    (3) Given the strategic importance of the region and the threats to 
the freedom of peoples who profess to share our values, what should be 
the policy of the United States toward the new democracies around the 
Black Sea?

                                   I

    Historically, the Black Sea has stood at the confluence of the 
Russian, Ottoman and Persian Empires and has been a central theater in 
the ``Great Game'' which was played out along its shores throughout the 
19th century.\1\ The contours of the Black Sea region which were 
established in the competitions between the great European powers in 
the Crimean War and World War I are still evident today. The 
geopolitics of the region remain heavily influenced by the internal 
character and foreign policy aspirations of the larger regional powers, 
Russia and Turkey. The middle powers, Ukraine, Romania, and Bulgaria, 
continue to seek security and stability in regional cooperation and, 
particularly, in closer relations with European institutions. The 
smaller littoral states, Moldova, Georgia, Azerbaijan, and Armenia, 
watch the great regional powers fearfully, envy the more cosmopolitan 
and Europeanized middle powers, and are bloodied by every tremor along 
the tectonic plate of the former imperial powers.
---------------------------------------------------------------------------
    \1\ For a fuller discussion see Ronald D. Asmus and Bruce P. 
Jackson, ``The Black Sea and the Frontiers of Freedom'' in Policy 
Review, June and July 2004
---------------------------------------------------------------------------
    Today, the same factors, which rendered the Black Sea region a 
``black hole'' in European history, now argue that this region is of 
central strategic interest to Europe and the United States. There are 
six major points:
    1. The Black Sea region has for centuries been the entry point to 
the broader Middle East. The borders of the democracies of the region 
touch Syria, Iraq, Iran, and the shores of the Caspian Sea. As the 
United States discovered to its dismay on March 1, 2003, without the 
cooperation of Black Sea States, in this instance Turkey, we cannot 
easily reach the northern approaches to the broader Middle East. Every 
19th century European power understood that the nation which controlled 
the Black Sea could control the most important real estate in the 
Middle East. If we are to be successful in our efforts to support the 
democratization of the Middle East, we will have to build a secure, 
prosperous, and democratic Black Sea region in the process.
    2. The Black Sea region was the beginning of the Silk Road of trade 
with Asia. While silk and spices have lost much of their allure since 
the times of Marco Polo, the energy reserves of central Asia are 
becoming increasingly important to our European allies and to the 
stability of world oil prices. Today, the member states of the European 
Union import approximately 50 percent of their energy needs; by 2020 
imports will rise to 70 percent of consumption. This increase will be 
delivered to Europe across and around the Black Sea region, on routes 
such as the Baku-Tbilisi-Ceyhan pipeline.
    3. The Black Sea region is rapidly becoming part of Europe. With 
the exception of Croatia, all current candidates for EU membership are 
from the Black Sea region. Romania and Bulgaria are expected to gain EU 
membership in 2007 and Turkey sometime around 2014. The western and 
southern shores of the Black Sea are also the borders of NATO and soon 
the European Union. These facts so impressed the heads of state of 
member states of NATO that at the Istanbul Summit in July 2004 the NATO 
Joint Communique recognized that the Black Sea region was an essential 
part of Euro-Atlantic security.
    4. It is not, however, only U.S. interests which tie us to the 
Black Sea region, but also our political values. Both the Rose 
Revolution in Georgia and the Orange Revolution in Ukraine occurred in 
countries along the northern and eastern shores of the sea. The 
possibilities created by these democratic revolutions not only inspired 
President Bush's Second Inaugural Address and his recent speech in 
Bratislava, but they changed the structure of politics in Minsk, 
Chisinau, and as far away as Almaty, Bishkek, and Beirut. Without 
doubt, the largest and most dramatic democratic changes are occurring 
in this part of the Euro-Atlantic.
    5. Sadly, it is not only our hopes that draw our attention to this 
region, but also our fears. The most sharp and dangerous fragments of 
the former Soviet Union lie scattered in an arc across the northern 
shore of the Black Sea. A belt of ``frozen conflicts'' begins in 
Transdnistria in eastern Moldova and runs through Abkhazia and South 
Ossetia in Georgia to the mountain heights of Nagorno-Karabakh on the 
border of Armenia and Azerbaijan. In each of these ``frozen conflicts'' 
created in the civil wars of the dying Soviet Empire, brutal warfare 
and ethnic cleansing have occurred and could reoccur. In Transdnistria, 
Abkhazia, and South Ossetia, transnational crime has found a home and 
developed a base for trafficking in weapons, drugs, women, and 
children. These criminal enterprises destabilize the governments of the 
region, threaten Europe with illicit traffic, and ultimately pose a 
danger to the United States with their capability and intent to sell 
weapons and technology to our enemies.
    6. Finally, the most negative expression of Russian foreign policy 
aspirations now occurs along the northern rim of the Black Sea region. 
Since I have already been given an opportunity by the committee to 
testify on the subject of Russian neoimperialism in what the Kremlin 
regards as Russia's ``near abroad,'' I will not repeat the argument 
here.\2\ Suffice it to say, whether we are intent on protecting new 
democracies from outside inference and coercion or are simply concerned 
about the damage Russian policy is doing to its own people, we are 
forced to focus on the region.
---------------------------------------------------------------------------
    \2\ Bruce Pitcairn Jackson, Testimony before the Senate Foreign 
Affairs Committee on ``Democracy in Russia,'' February 17, 2005.
---------------------------------------------------------------------------
    In short, the democracies of the Black Sea lie on the knife edge of 
history which separates the politics of 19th century imperialism from 
European modernity. Reactionary forces in the region (separatism, 
historical Russian aspirations, and criminal interest) would prefer a 
return to a balance of power system where the powerful rule over 
spheres of interest and the powerless would serve either autocrat or 
kleptocrat. On the other hand, those democratic reformers who view 
themselves as the direct descendants of the leaders of Solidarity and 
Charter 77 who freed Central and Eastern Europe in 1989, aspire to see 
their new democracies following the path of Poland and the Czech 
Republic into a European system based on liberal values and shared 
security.
    Which of these forces ends up defining a modern Black Sea system is 
a matter of great consequence for the United States and Europe. Not 
only would a return to the politics of the past constrain our ability 
to work for democratic change in the greater Middle East and damage the 
energy security of Europe, but if the new democracies fail to make the 
Black Sea a part of the Euro-Atlantic system, the lives of a quarter of 
a billion Europeans will be nastier, more brutish, and (inevitably) 
shorter.

                                   II

    Let me turn from the region as a whole to a summary discussion of 
the state of democracy in its constituent states, where it is somewhat 
easier to see the great possibilities and the factors which retard 
reform and political integration.
    Romania and Bulgaria are undoubtedly the success stories of 
Southeast Europe and the Black Sea. Both were invited to join NATO in 
2002 where they have performed well and contributed to missions in 
Afghanistan and Iraq. As I mentioned earlier, both are expected to join 
the European Union on January 1, 2007, leading their region into the 
institutional core of Europe. The two factors that retard the political 
and economic development of both Romania and Bulgaria are deeply 
entrenched governmental corruption and a weak and often compromised 
judiciary. But, even in this, there is a good news story to be told. In 
the recent Romanian Presidential election for the first time, the issue 
of corruption dominated the campaign and swept reformer Traian Basescu 
into the Presidency. His government has launched a large-scale 
offensive against corruption in government and business. Forthcoming 
elections in Bulgaria may offer a similar, albeit long overdue, 
opportunity to accelerate reform. Clearly, Romania and Bulgaria are two 
democracies whose long-term prospects look extremely bright.
    Incidentally, Mr. Chairman, President Basescu arrives in Washington 
later today for a meeting tomorrow with President Bush and Members of 
the Senate. President Basescu is one of the most eloquent advocates of 
a comprehensive strategy for the Black Sea, aimed at advancing 
prosperity and democracy throughout the region. His goal is nothing 
less than to make the Black Sea ``a second Mediterranean'' in terms of 
shared security, commerce, and political cooperation.
    Turkey achieved an historic milestone on December 17, 2004, when 
the European Union finally agreed to open membership negotiations. 
Despite this confirmation of Turkey's European destiny, there are 
strong indications that Turkey's national and geopolitical identity 
crisis is far from over and that Turkey may be entering a difficult and 
problematic stage. In June 2004, in order to maintain some manner of 
regional hegemony, Turkey played a key role in blocking the extension 
of the NATO surveillance operation ACTIVE ENDEAVOR to the Black Sea. 
Internally, the ruling AK Party seems have taken a turn for the worse, 
characterized by strident anti-Americanism, cultural anti-Europeanism, 
and a resurgent xenophobia. (The television footage of Turkish riot 
police savagely beating young women at a peaceful protest for political 
rights that appeared on BBC yesterday is but the most recent negative 
development.)
    In foreign policy, during the term of Prime Minister Erdogan, 
Turkey has quietly broken off its strategic relationship with Israel, 
refused to negotiate with Armenia on the opening of their common border 
(thereby obstructing negotiations on Nagorno-Karabakh), and demanded of 
the United States a draconian treatment of the Kurdish population of 
Iraq. In diplomatic parlance, Turkey has become ``unhelpful.''
    Perhaps, most worrying are reports of Turkish-Russian discussions 
of a coordinated policy in the Black Sea region, which would inevitably 
be conducted at the expense of smaller, pro-European democracies. The 
motivation for Turkey's negative regional behavior appears to be a 
classic case of Great Power insecurity and a fear that Turkey will lose 
its distinct identity in the economic and demographic uncertainty of 
modern Europe. We can hope that the negative trend in Turkish politics 
is related to the turmoil in the Middle East and the problems and 
contradictions which a secular Islamic government encounters in the 
course of European integration rather than a response to the flowering 
of democracy around the Black Sea. Nevertheless, Turkey has entered a 
dangerous period both for itself and for United States-Turkish 
relations which deserves serious attention.
    Ukraine is possibly the best-known and most inspiring of the Black 
Sea democracies. The triumph of Viktor Yushchenko and the Ukrainian 
people is without question the most significant event in the advance of 
democracy in Europe since the fall of the Berlin Wall. That said, 
President Yushchenko and Prime Minister Yulia Tymoshenko have a 
Herculean task in front of them. First and foremost, they must unite a 
nation even as they undertake the reforms which are necessary for 
Ukraine to become a European democracy.
    The most dangerous year for a new democracy is its first year, and 
for Ukraine the critical period is from today through the parliamentary 
elections in March 2006. In this defining 12-month period, Viktor 
Yushchenko will have to address the criminal conduct of the Kuchma 
period, define and negotiate the rules of the game for the business 
community, and make significant progress both within the Action Plan of 
the European Union's Neighborhood Policy and in an intensified dialog 
with NATO. Any one of these tasks would be formidable, but the new 
government must accomplish this and more, and do so in such a way that 
convinces the people of Kiev, Lviv, and Donetsk that they share a 
common future in a united pro-Western Ukraine. The critical task will 
be to establish transparent business practices and to eliminate the 
``grey economy'' without resorting to large-scale renationalization 
which would destroy the confidence of foreign investors and dangerously 
inflame sectional resentments.
    The further danger for Ukrainian democracy lies in the hostility of 
Moscow toward pro-European democracies in the former Soviet space and 
the fear that democratic reform inspires in the criminal clans, which 
have dominated the ``grey economy'' of Ukraine up until now. Sadly, but 
necessarily, the stability and security of EU and NATO membership is 
some years off and over the immediate political horizon. The United 
States and our European allies must bring their entire diplomatic and 
economic power to bear to ensure that Russia, or criminal groups 
emboldened by Russia, do not undermine the Yushchenko Government. We 
must support the Ukrainian people in their truly historic endeavor.
    Georgia's democratic revolution is only slightly less well-known 
than Ukraine's and is succeeding against even longer odds. Georgia, 
under the leadership of President Misha Saakashvili, has finished an 
extraordinary first year of reform, which saw the breakaway province of 
Adjaria reunited with the constitutional government in Tbilisi. By all 
indicators, such as its qualification for participation within the 
Millennium Challenge Account, Georgia is delivering on its commitments 
to economic reform and the democratic transformation of its society and 
government. Like Ukraine, however, Georgia has encountered serious and 
continuous obstruction from Russia. The Russian Government has refused 
to comply with its international treaty obligation to withdraw its 
troops from the Soviet-era bases on Georgian soil and has consistently 
supported separatists in the breakaway Georgian region of Abkhazia. 
Late last year, Russia blocked the OSCE from reinforcing a peacekeeping 
mission in South Ossetia in order to protect its ability to ship 
prohibited weapons and explosives through the Roki Tunnel to 
paramilitary gangs in South Ossetia. And, at the December OSCE Summit 
in Sofia, Bulgaria, Russia forced the OSCE to close the Border 
Monitoring Operation which patrolled the northern border of Georgia 
with Ingushetia, Dagestan and Chechnya. Russia's actions could very 
well prove to be the death knell for the OSCE; we must ensure that they 
are not for democratic Georgia.
    Despite Russian attempts to destabilize the Saakashvili Government, 
Georgian democracy continues to mature and was strong enough to 
withstand the recent tragic death of Prime Minister Zurab Zhvania, who 
was a mainstay of the Rose Revolution. If democracies could be compared 
to sports teams, Georgia would be the 1980's U.S. Olympic Hockey team. 
Like the Lake Placid Olympic team, Georgia should not be winning, 
except it does. It seems to me that Georgia has the essential quality 
of scrappiness that animated successful democratic movements in Poland, 
the Czech Republic, Slovakia, and the Baltic States against the 
monolith of Soviet power; they care more and are willing to work harder 
for democracy than the reactionary forces are willing to work to 
restore autocratic rule and criminal enterprise.
    In contrast, the other smaller states of the Black Sea regime, 
Moldova, Azerbaijan, and Armenia, retain more characteristics of post-
Soviet autocracies than of emerging European democracies. To varying 
degrees, recent elections have not met European standards. Opposition 
parties are harassed and opposition candidates are occasionally 
threatened with criminal charges or simply imprisoned. Both civil 
society and the free press are under duress in these countries, as we 
can see from the recent assassination of the editor of an opposition 
newspaper in Baku.
    For the most part, the major factors retarding the democratic 
development of Moldova, Azerbaijan, and Armenia are the persistence of 
frozen conflicts on their territories and the negative effect these 
conflicts have on their economic development and domestic politics. The 
standoff between Moldovan Government and the Smirnov clan in 
Transdnistria has proliferated corruption and crime throughout Moldova 
and served as an excuse for President Voronin to limit the political 
and press freedoms of Moldovan citizens. Similarly, the impasse on 
Nagorno-Karabakh has served to maintain extremists in both Azeri and 
Armenian politics, and succeeded in isolating both countries from 
constructive interaction with their Black Sea neighbors and with Euro-
Atlantic institutions.
    This brief survey of the mature, nascent, and inchoate democracies 
of the Black Sea region reveals a special class of democracies which 
are torn between the desire of their peoples for a European future (and 
all the economic and political freedoms these peoples associate with 
Europe) and the lingering grip of a brutal past. In short, this is a 
region of Europe where the future of democracy is still at risk.

                                  III

    If I am correct in arguing that the Black Sea region is a area of 
enormous democratic potential, but where democracy remains at risk, 
then the policy of the United States has to be to support new 
democracies, to dissuade or deter foreign powers from intervening in 
their development, and to ensure that the Euro-Atlantic institutions 
they seek remain open to them. I have six recommendations for this 
committee to consider and for U.S. policy generally:
    1. Accelerate the leading democracies of the region. The prospects 
for democracy in the Black Sea region will be substantially enhanced by 
the formal integration of Romania and Bulgaria in the European Union. 
Their accession must remain on track for January 1, 2007, in order to 
convey to the other states of the region that the possibility of near-
term European integration exists and that painful reforms have their 
reward in security and prosperity. The United States can assist Romania 
and Bulgaria in achieving their goal by pushing hard for judicial 
reform and strict standards of official conduct. The Department of 
Defense should make its long-delayed decision on the repositioning of 
United States European bases to the sites offered by the Romanian 
Government in the vicinity of Constanza on the Black Sea. Nothing could 
make more clear that the United States shares the view of the European 
Union that security and stability in the Black Sea region is essential 
to Euro-Atlantic security.
    2. Reform and adapt our institutions to perform in the Black Sea 
region. Existing institutions, such as NATO and the OSCE, must be made 
to perform in service of democracy in the Black Sea littorals. We must 
revisit the decision to block Active Endeavor from being extended to 
the Black Sea and overturn the archaic Montreux Convention, which is 
sometimes invoked as the justification for barring NATO surveillance 
from transiting the Bosphorus. Similarly, we must demand that the OSCE 
fulfill its peacekeeping and monitoring responsibilities throughout the 
region. Even if we are successful with both NATO and the OSCE, the 
Black Sea region remains ``institution-poor.'' Regional initiatives, 
such as the confused GUUAM (Georgia, Ukraine, Uzbekistan, Azerbaijan, 
and Moldova) or the moribund Black Sea Economic Cooperation forum have 
not filled the gap. As a consequence, we should engage with regional 
leaders, such as Romanian President Basescu, Georgian President 
Saakashvili, and Ukrainian President Yushchenko, on the formation of 
new structures for a Black Sea strategy.
    3. Confront both Russia and Turkey. Whatever we hope to accomplish 
in the Black Sea region will be impossible without the willingness to 
confront Russia where its conduct goes beyond the acceptable. But we 
must also communicate frankly to Turkey that we expect our friends and 
allies to support other democratic states and to work for the peaceful 
resolution of conflicts in their region. Just because Russian officials 
become peevish when we point out that the poison used on Yushchenko and 
the explosives used in the car bombing in Gori, Georgia, came from 
Russia, does not mean we should ignore this conduct. Just because 
Turkish officials become indignant at the mention of a genocidal 
campaign conducted by Ottoman authorities against Armenian civilians in 
the early years of the last century does not mean that coming to terms 
with history should not be discussed between democratic allies. If we 
are to succeed where democracy is at risk, we must be clear in what we 
say and do.
    4. Prioritize the frozen conflicts. Beginning with the conflict in 
Transdnistria, our negotiators need to redouble their efforts to find 
creative solutions. The Orange Revolution in Ukraine has opened up the 
possibility of ending the criminal enterprise in Transdnistria and its 
secessionist conflict with the constitutional government in Chisinau. 
For negotiations to succeed, however, we should expand the so-called 
Pentagonal-format to include both the European Union and Romania, as 
essential and constructive partners. In Nagorno-Karabakh, we must press 
Azerbaijan and Armenia back to serious negotiations and insist that 
negotiations begin from the point reached at 2001 meeting in Key West. 
Finally, we must show far greater resolve and enthusiasm when parties 
take a meaningful step toward peace. President Misha Saakashvili's 
enlightened peace plan for South Ossetia has been greeted by a 
resounding silence in Brussels and Washington, which is dumbfounding. 
It is also callous and derelict.
    5. Harmonize the democracy support programs of the United States 
and the European Union. Both the Millennium Challenge Account and 
European Union's Neighborhood Policy were designed to assist emerging 
democracies in their efforts to accelerate economic development and 
strengthen the capacity of democratic institutions. Both the United 
States and the European Union are active in the Black Sea region, but 
formal coordination does not yet exist. The four freedoms of market 
access, labor mobility, investment, and travel offered in Europe's 
Neighborhood Policy are the obvious complement to what the United 
States can offer in terms of security support and developmental aid. 
Closer coordination is essential. We must also challenge our 
congressional-funded NGOs, such as the National Endowment of Democracy, 
IRI and NDI, to address a wider spectrum of democracy-support 
activities. Elections are not the only things that matter in the Black 
Sea region. Strengthening civil society, the press and parliamentary 
oppositions are also key.
    6. Focus on Ukraine. For better or for worse, the extent and 
character of democracy in the Black Sea region will be defined to a 
great extent by the successes and failures of democratic change in 
Ukraine. Without a democratic Ukraine, peace in Moldova will remain 
elusive and the democracies of the South Caucasus will be isolated from 
Europe. The ultimate disposition of Ukraine may well finally answer the 
question that has nagged at us since 1989: ``What is the size of 
Europe?'' If the Orange Revolution succeeds and European institutions 
maintain an ``Open Door'' policy toward Ukraine's candidacy for 
membership in NATO and the European Union, then we can assume that all 
the democracies on the Black Sea have a place in Europe, including, 
some day, Russia.
    Mr. Chairman, I believe that what is occurring around the Black Sea 
may be the beginning of the final phase of the completion of a Europe 
whole and free. Over the 5 years remaining in this decade, I think that 
the rapid democratic transformation of Central, Eastern, and now 
Southeastern Europe will come to a conclusion, and a new (and far 
larger) community of Euro-Atlantic democracies will result. While 
democratic change is ultimately the responsibility of the Black Sea 
States themselves, the United States has a significant role to play 
both in supporting and protecting these young democracies. How well we 
play this role will affect the lives of tens of millions of people and, 
quite literally, shape the future of the West.
    Thank you, Mr. Chairman.

    Senator Allen. Thank you, Mr. Jackson, for your, as always, 
articulate insight and leadership. At the conclusion I was glad 
to get a sense of optimism about the future.
    We'll hear from all our witnesses and then we'll pose some 
questions. Thank you, Mr. Jackson. Now we'd like to hear from 
you, Mr. Socor.

     STATEMENT OF VLADIMIR SOCOR, SENIOR FELLOW, JAMESTOWN 
                   FOUNDATION, WASHINGTON, DC

    Mr. Socor. Mr. Chairman, I'm grateful for the opportunity 
to appear and testify in this hearing on a region that has 
surged to salience in debates on U.S. foreign and security 
policy and strategy. With your permission, I will skip those 
parts of my prepared presentation that overlap with Ambassador 
Tefft's and Bruce Jackson's presentations, and I will read 
those parts of my presentation that deal with threats to U.S. 
interests and to the interests of U.S. allies and partners in 
the region.
    Senator Allen. You have my permission and I think that's a 
good strategy.
    Mr. Socor. Thank you--and with the frozen conflicts. 
American and overall Western interests in this region require 
stable reform-capable states in control of their own borders, 
safe from external military or economic pressures or externally 
inspired secessions, secure in their function as energy transit 
routes and capable of supporting U.S.-led or NATO coalition 
operations.
    Those interests can only be sustained if the region's 
countries develop good governance with functioning democratic 
institutions and political processes resistant to corruption or 
hostile manipulation, and if they are protected by 
international law and Western-led security arrangements.
    Georgia, Ukraine, and Azerbaijan have acted as de facto 
allies in providing political backing, guaranteeing air and 
land passage rights, and fielding peace support troops for NATO 
and United States-led operations. Georgia and Azerbaijan are 
active members of the antiterrorist coalition. Their 
participation in the coalition is also a means to maintain 
close relations with the United States, advance the 
modernization of their security sectors, and earn their 
credentials as NATO aspirant countries.
    For its part, Azerbaijan gave radical Islamist 
organizations no chance to make inroads into the country. 
Successful development of Azerbaijan as a Muslim secular state 
is also a shared interest of that country and the West. This 
goal has good prospects of fulfillment in Azerbaijan's society 
characterized by religious tolerance and receptiveness to 
Western cultural influences.
    The region's Western-oriented countries are facing a wide 
spectrum of threats to their security, mainly from Russia and 
its local proteges. The overarching goal is to thwart these 
countries' Euro-Atlantic integration and force them back into a 
Russian sphere of dominance. The scope, intensity, and 
systematic application of threats has markedly increased over 
the last year as part of President Putin's contribution to the 
shaping of Russia's conduct.
    These may be described as old, new, and newest type threats 
to security. The old-type threats stem from troops and bases 
stationed unlawfully in other countries, seizures of 
territories, border changes de facto, ethnic cleansing, and 
creation of heavily armed proxy statelets. Georgia, Moldova, 
and Azerbaijan are the targets of such blackmail.
    New-type threats are those associated with illegal arms and 
drugs trafficking, rampant contraband, and organized 
transnational criminality, all of which use the Russian-
protected secessionist enclaves as safe havens in staging 
areas. Such activities are generally associated with nonstate 
actors of an often terrorist nature. In the Black Sea region, 
however, state actors within Russia are often behind these 
activities, severely undermining the target countries' 
economies and state institutions.
    The newest type threats to security can be seen in Russia's 
assault on electoral processes, some months ago in Ukraine's 
Presidential elections and in recent weeks in Moldova's 
parliamentary elections and meanwhile even in loyalist 
Abkhazia. Using massive financial, mass media, and covert 
action means, Russia has sought to influence the outcome of 
elections or hijack them outright in order to install its 
favorites in power.
    Closely related to this is the export of the Russian model 
of governance, characterized by a symbiosis of neo-KGB 
structures, organized crime, state bureaucracy, and government-
appointed big business. In all of the situations described 
above, security and democracy are equally at risk.
    The Black Sea region is the most conflict-plagued region 
along the new Euro-Atlantic perimeter. This situation limits 
the ability of the United States to capitalize on the region's 
high strategic value. Thirteen years after the U.S.S.R.'s 
dissolution, Moscow continues heavily to dominate conflict 
management in this region. Russia, largely responsible for 
sparking or fanning these conflicts, has a vested interest in 
keeping them smoldering, so as to pressure Georgia, Azerbaijan, 
Armenia, and Moldova and thwart their Euro-Atlantic 
integration.
    Russia's policy consists of freezing, not the conflicts as 
such, but rather the negotiating processes which Russia itself 
dominates. The United Nations and OSCE, left largely to their 
own devices, have merely conserved these conflicts.
    There are those who suggest that the United States should 
defer to Moscow on these issues, lest Russia's cooperation with 
the United States in antiterrorism and anti-WMD proliferation 
efforts be jeopardized. This thesis seems to underestimate 
Russia's own declared interests in cooperating with such 
efforts, to overestimate the practical value of Moscow's 
contributions, and to ignore Russia's outright obstruction of 
United States efforts in a number of cases. Moreover, that 
thesis would seem to confirm the Kremlin in its dangerous 
expectation that strategic partnership with the United States 
should entail acceptance of Russian paramountcy on peacekeeping 
and conflict resolution in the post-Soviet space.
    Such a quasi-monopoly would be an ingredient to sphere-of-
influence rebuilding. It is crucial to avoid the perception, 
let alone the fact, of a Russia-United States or Russia-West 
division of peacekeeping and conflict management spheres, or an 
informal partition of countries' territories. Strategic 
partnerships cannot long be sustained with rump countries 
vulnerable to armed secessions pressures across arm-controlled 
external borders.
    It is high time to move this issue to the front burner of 
U.S. security policy, preferably in synergy with NATO and the 
EU countries. The United States is the best place for promoting 
conflict settlement solutions that would consolidate the 
region's states in strategic partnerships with the United 
States.
    Turning the broader Black Sea region into a policy priority 
need not compete with the priorities assigned to other areas. 
On the contrary, stabilization of this region would entail 
incomparably lower risks and incomparably smaller resources 
compared to the risks and resource commitments in Iraq, 
Afghanistan, or emergent initiatives in the broader Middle 
East. The fact is that a secure and stable Black Sea region is 
necessary for sustaining those U.S.-led operations and 
initiatives.
    And may I conclude my prepared testimony, Mr. Chairman, 
with some remarks on the CFE Treaty and Istanbul Commitments, 
leading off from the first panel's presentation. Russia has 
openly repudiated its obligations under the 1999 adapted treaty 
on conventional forces in Europe and Istanbul Commitments, twin 
parts of a single package, regarding withdrawal of Russian 
Forces from Georgia and Moldova. The OSCE, custodian of those 
documents, has cooperated with Russia in eviscerating them.
    Troops withdrawal deadlines were postponed and then removed 
altogether. Preconditions to withdrawal were attached where the 
troop withdrawal was to have been unconditional. Excuses were 
found for retaining some Russian troops in place where the 
withdrawal was to have been complete. Wide verification 
loopholes were tacitly accepted. Heavy weaponry, coyly 
designated as unaccounted-for treaty-limited equipment by a 
complacent OSCE, was transferred from Russia's arsenals into 
those of the separatist enclaves. The creation of Russian-
staffed separatist forces was tolerated. And the requirement of 
host country consent to the stationing of foreign troops is 
being flouted.
    Since 2002, Moscow has rejected the very notion that it had 
made commitments in Istanbul to withdraw its troops from 
Georgia and Moldova. The OSCE itself all along turned those 
Russian commitments only politically binding as distinct from 
legally binding, that is, not binding in practice. All these 
concessions notwithstanding, the OSCE is no longer able, since 
2003, even to cite its own 1999 decisions, because Russia has 
easily vetoed such references in the organization's routine 
year-end resolutions. Realistically speaking, the Istanbul 
Commitments are dead.
    Since 2004, moreover, Moscow threatens to destroy the OSCE 
by blocking the adoption of the organization's budget and 
terminating certain OSCE activities. Russia does not want to 
kill the OSCE, but rather to harness and use the weakened 
organization. Under these circumstances, no one can possibly 
expect the OSCE to resurrect the Istanbul Commitments, let 
alone ensure compliance with them.
    Meanwhile, the United States and NATO governments 
collectively take the position that they would not ratify the 
adapted CFE Treaty, which Moscow wants ratified, until Russia 
has complied with the Istanbul Commitments. This form of 
leverage has manifestly proven too weak to induce Russia to 
withdraw its troops from Georgia and Moldova. Russian officials 
scoff at calls for troop withdrawal based on the Istanbul 
documents.
    It is high time for Georgia and Moldova to go beyond the 
OSCE to international organizations and argue the case for 
Russian troop withdrawal on the basis of national sovereignty 
and international law. The United States, along with the Euro-
Atlantic community, should place these issues prominently on 
the agenda of United States-Russia, NATO-Russia, and EU-Russia 
agendas, and not just at summit time, as has been done 
occasionally and feebly this far, but on a regular basis until 
this legitimate goal is achieved.
    And this, Mr. Chairman, completes my testimony.
    [The prepared statement of Mr. Socor follows:]

    Prepared Statement of Vladimir Socor, Senior Fellow, Jamestown 
                       Foundation, Washington, DC

    Mr. Chairman, members of the committee, I am grateful for the 
opportunity to appear and testify in this important hearing on a region 
that has surged to salience in debates on United States foreign and 
security policy and strategy: The broader Black Sea region, new 
frontier in the advance of Euro-Atlantic security and democracy. My 
presentation will succinctly identify the interests of the United 
States and its friends in the region, threats to those interests, and 
steps the United States can take to promote its security and democratic 
goals together with its friends in the region.

                               INTERESTS

    The Black Sea region forms the hub of an evolving geostrategic and 
geo-economic system that extends from NATO Europe to central Asia and 
Afghanistan, and as such is crucial to United States-led antiterrorism 
efforts. It provides direct strategic access for American and allied 
forces to bases and theaters of operation in central Asia and the 
Middle East. It also provides westbound transit routes for Caspian 
energy supplies which are key to our European allies' energy balance in 
the years ahead.
    Countries in the Black Sea region rarely if ever experienced 
security, democracy, or prosperity. Their chance came with the end of 
Soviet dominance and the enlargement of the Euro-Atlantic community of 
interests and values.
    At present, however, Russian President Vladimir Putin leads a 
campaign to halt and turn back that process at the former Soviet 
borders, so as to restore a sphere of Russian political, economic, and 
military dominance in a large part of the Black Sea region. Threats of 
force against Georgia, refusal to withdraw Russian troops from that 
country and from Moldova, overt support for secessionist enclaves in 
those two countries, fanning of civil confrontation during the 
Presidential campaign in Ukraine, the poison attack on Viktor 
Yushchenko, are among the recent brutal hallmarks of Mr. Putin's policy 
in this region. The answer must be a redoubling of democratic 
institution building within these countries, and anchoring them to 
Euro-Atlantic institutions. The United States is uniquely equipped to 
lead this effort within the Euro-Atlantic community and in the region 
itself.
    With Romania and Bulgaria now in NATO and set to join the European 
Union, and with old NATO ally Turkey aiming for EU entry, now is the 
time to start planning for the Euro-Atlantic integration of countries 
that have declared that aspiration in the broader Black Sea region: 
Ukraine, Georgia, Moldova, Azerbaijan.

                          FRIENDS AND PARTNERS

    American and overall Western interests in this region require 
stable, reform-capable states, in control of their own borders, safe 
from external military or economic pressures or externally inspired 
secessions, secure in their function as energy transit routes, and 
capable of supporting U.S.-led or NATO coalition operations. Those 
interests can only be sustained if the region's countries develop good 
governance, with functioning democratic institutions and political 
processes resistant to corruption or hostile manipulation, and if they 
are protected by international law and Western-led security 
arrangements.
    Thus, effective state- and democracy-building and strategic 
interests are twin sides of a common set of United States and Euro-
Atlantic interests in the Black Sea region. By the same token, security 
threats to countries in this region and actions that undermine their 
sovereignty run counter to those interests.
    Within this region, Romania and Bulgaria became providers of 
security and contributors to coalition operations even before accession 
to NATO. Their role is set to grow further as the two countries become 
hosts to U.S. military installations on the Black Sea littoral. NATO 
aspirants Ukraine, Georgia, and Azerbaijan have acted as de facto 
allies in providing political backing, guaranteeing air and land 
passage rights, and fielding peace-support troops for NATO and United 
States-led operations. Georgia and Azerbaijan, active members of the 
antiterrorist coalition, have thus graduated from the role of pure 
consumers of security to that of net consumers and incipient providers 
of security to the region and beyond.
    Tbilisi and Baku regard their participation in the antiterrorism 
coalition as synonymous with their national interests. Already before 
9/11 they had experienced terrorist threats and attacks in the form of 
externally inspired coup and assassination attempts against their 
leaders and ethnic cleansing. Thus they are vitally interested in 
combating terrorism in all its forms. For both Georgia and Azerbaijan, 
participation in the antiterrorism coalition is also a means to 
maintain close relations with the United States, advance the 
modernization of their security sectors, and earn their credentials as 
NATO aspirant countries.
    Moreover, Georgia and Azerbaijan are on the alert to prevent a 
spillover of the Russian-Chechen war into their territories and to 
interdict the passage of any foreign gunmen, their suspected 
accomplices, or radical Islamist missionaries. With United States 
assistance, Georgia cleaned up the Pankisi Valley in 2002-2003 and 
holds it under control since then. For its part, Azerbaijan gave 
radical Islamist organizations no chance to make inroads into the 
country. Successful development of Azerbaijan as a Muslim secular state 
is also a shared interest of that country and the West. This goal has 
good prospects of fulfillment in Azerbaijan's society characterized by 
religious tolerance and receptiveness to Western models.
    The success of prodemocracy movements, known as Rose and Orange 
Revolutions, in Georgia and Ukraine recently, is seen by many as 
potentially repeatable in Armenia, but unlikely to be duplicated in 
Azerbaijan or Moldova. In these two countries, democratization will 
likely follow an evolutionary path. Last week Presidents Mikheil 
Saakashvili of Georgia and Viktor Yushchenko of Ukraine, meeting with 
Moldova's President Vladimir Voronin, announced their readiness to work 
with him toward completing Eastern Europe's third wave of 
democratization--that in the broader Black Sea region. Mr. Voronin and 
his team, communists in name only, have reoriented Moldova westward and 
are resisting what they describe as ``Russia's attempts at 
recolonization.'' These Presidents along with Ilham Aliev of Azerbaijan 
are scheduled to meet again next month in Moldova with a view to 
revitalizing the GUAM (Georgia, Ukraine, Azerbaijan, Moldova) group of 
countries.

                   SECURITY THREATS: OLD, NEW, NEWEST

    The region's Western-oriented countries are facing a wide spectrum 
of threats to their security, mainly from Russia and its local 
proteges. The overarching goal is to thwart these countries' Euro-
Atlantic integration and force them back into a Russian sphere of 
dominance. The scope, intensity, and systematic application of threats 
has markedly increased over the last year, as part of President Putin's 
contribution to the shaping of Russia's conduct. These may be described 
as old-, new-, and newest-type threats to security.
    The ``old-type'' threats stem from troops and bases stationed 
unlawfully in other countries, seizures of territories, border changes 
de facto, ethnic cleansing, and creation of heavily armed proxy 
statelets. Georgia, Moldova, and Azerbaijan are the targets of such 
blackmail.
    ``New-type'' threats are those associated with illegal arms and 
drugs trafficking, rampant contraband, and organized transnational 
criminality, all of which use the Russian-protected secessionist 
enclaves as safe havens and staging areas. Such activities are usually 
associated with nonstate actors, often of a terrorist nature. In the 
Black Sea region, however, state actors within Russia are often behind 
these activities, severely undermining the target countries' economies 
and state institutions.
    The ``newest type'' threat to security can be seen in Russia's 
assault on electoral processes, some months ago in Ukraine's 
Presidential election and in recent weeks in Moldoya's parliamentary 
elections (and meanwhile even in loyalist Abkhazia). Using massive 
financial, mass-media, and covert action means, Russia has sought to 
influence the outcome of elections or hijack them outright in order to 
install its favorites in power.
    Closely related to this is the export of the Russian model of 
governance, characterized by a symbiosis of neo-KGB structures, 
organized crime, state bureaucracy, and government-connected big 
business. In all of the situations described above, security and 
democracy are equally at risk.

                          ``FROZEN'' CONFLICTS

    The Black Sea region is the most conflict-plagued region along the 
new Euro-Atlantic perimeter. This situation limits the ability of the 
United States to capitalize on the region's high strategic value. 
Thirteen years after the U.S.S.R.'s dissolution, Moscow continues 
heavily to dominate conflict-management in this region. Russia, largely 
responsible for sparking or fanning these conficts, has a vested 
interest in keeping them smoldering, so as to pressure Georgia, 
Azerbaijan, Armenia, and Moldova and thwart their Euro-Atlantic 
integration. Russia's policy consists of freezing not the conflicts as 
such, but the rather the negotiating processes, which Russia itself 
dominates. The United Nations and OSCE, left largely to their own 
devices, have merely conserved these conflicts.
    There are those who suggest that the United States should defer to 
Moscow on this issue, lest Russia's cooperation with the United States 
in antiterrorism and anti-WMD-proliferation efforts be jeopardized. 
This thesis seems to underestimate Russia's own declared interest in 
cooperating in such efforts; to overestimate the practical value of 
Moscow's contributions; and to ignore Russia's outright obstruction of 
United States efforts in a number of cases.
    Moreover, that thesis would seem to confirm the Kremlin in its 
dangerous expectation that strategic partnership with the United States 
should entail acceptance of Russian paramountcy on ``peacekeeping'' and 
conflict-resolution in the ``post-Soviet space.'' This is an ingredient 
to sphere-of-influence rebuilding. It is crucial to avoid the 
perception (let alone the fact) of a Russia-United States or Russia-
West division of peacekeeping and conflict-management spheres, or an 
informal partition of countries' territories. Strategic partnerships 
can not long be sustained with rump countries vulnerable to armed 
secessionist pressures across uncontrolled external borders.
    It is high time to move this issue to the front burner of U.S. 
security policy. Preferably in synergy with NATO and EU countries, the 
United States is best placed for promoting conflict-settlement 
solutions that would consolidate the region's states in strategic 
partnership with the United States. Turning the broader Black Sea 
region into a policy priority need not compete with the priorities 
assigned to other areas. On the contrary, stabilization of this region 
would entail incomparably lower risks and incomparably smaller 
resources compared to the risks and resource commitments in Iraq, 
Afghanistan, or emergent initiatives in the broader Middle East. The 
fact is that a secure and stable Black Sea region is necessary for 
sustaining those U.S.-led operations and initiatives.

                    CFE TREATY, ISTANBUL COMMITMENTS

    Russia has openly repudiated its obligations under the 1999-adapted 
Treaty on Conventional Forces in Europe and Istanbul Commitments (twin 
parts of a single package) regarding withdrawal of Russian forces from 
Georgia and Moldova.
    The OSCE, custodian of those documents, has cooperated with Russia 
in eviscerating them. Troop withdrawal deadlines were postponed and 
then removed altogether; preconditions to withdrawal were attached 
where the troop withdrawal was to have been unconditional; excuses were 
found for retaining some Russian troops in place where the withdrawal 
was to have been complete; wide verification loopholes were tacitly 
accepted; heavy weaponry--coyly designated as ``unaccounted-for treaty-
limited equipment'' by a complacent OSCE--was transferred from Russia's 
arsenals into those of the separatist enclaves; the creation of 
Russian-staffed separatist forces was tolerated; and the requirement of 
host-country consent to the stationing of foreign troops) is being 
flouted. Since 2002 Moscow has rejected the very notion that it had 
made ``commitments'' in Istanbul to withdraw its troops from Georgia 
and Moldova. The OSCE itself all along termed those Russian commitments 
only ``politically binding,'' as distinct from legally binding; i.e., 
not binding in practice. All these concessions notwithstanding, the 
OSCE is no longer able since 2003 even to cite its own 1999 decisions, 
because Russia has easily vetoed such references in the organization's 
routine year-end resolutions. Realistically speaking, the Istanbul 
Commitments are dead.
    Since 2004, moreover, Moscow threatens to destroy the OSCE by 
blocking the adoption of the organization's budget and terminating 
certain OSCE activities. Russia does not want to kill the OSCE, but 
rather to harness and use the weakened organization. Under these 
circumstances, no one can possibly expect the OSCE to resurrect the 
Istanbul Commitments, let alone ensure compliance with them.
    Meanwhile, the United States and NATO governments collectively take 
the position that they would not ratify the adapted CFE Treaty (which 
Moscow wants ratified) until Russia has complied with the Istanbul 
Commitments. This form of leverage has, manifestly, proven too weak to 
induce Russia to withdraw its troops from Georgia and Moldova. Russian 
officials scoff at calls for troop withdrawal based on the Istanbul 
documents. It is high time for Georgia and Moldova to go beyond the 
OSCE to international organizations, and argue the case for Russian 
troop withdrawal on the basis of national sovereignty and international 
law. The United States, along with the Euro-Atlantic community, should 
place these issues prominent on the agenda of United States-Russia, 
NATO-Russia, and EU-Russia agendas, and not just at summit time (as has 
been done occasionally and feebly thus far) but also on a regular basis 
until this legitimate goal is achieved.

    Senator Allen. Thank you so much, Mr. Socor, for your 
testimony. You've made some very probing and interesting 
assertions that I want to follow up with you on in question 
time, but thank you.
    Ms. Baran.

 STATEMENT OF ZEYNO BARAN, DIRECTOR OF INTERNATIONAL SECURITY 
     AND ENERGY PROGRAMS, THE NIXON CENTER, WASHINGTON, DC

    Ms. Baran. Thank you, Mr. Chairman, for the opportunity to 
appear before you today. I will not discuss developments in all 
the countries and skip over some of the issues that were 
mentioned before. And I'd like to only mention, as far as the 
recent revolutions in Georgia and Ukraine, that sustainability 
of these reformist revolutions is essential, and the United 
States needs to continue to support these two countries as they 
proceed with their difficult transition process.
    I'd like to focus on three key issues. First is the Russian 
energy monopoly over the European and Eurasian countries, which 
is one of the main impediments to the future success and 
prosperity of Georgia and Ukraine, as well as to the democratic 
future of the Black Sea region as a whole.
    Second, I'd like to mention the dangerous trend in Armenia 
and especially Azerbaijan. I believe if Azerbaijan does not 
hold democratic parliamentary elections in the fall of 2005, 
Islamist forces may gain ground. Moreover, if there is no 
solution to the Karabakh issue over the next several years, I 
strongly believe Armenia and Azerbaijan may once again go to 
war.
    Third, I was asked to focus my remarks especially on Turkey 
and the deterioration in the United States-Turkish 
relationship. Turkish mistrust of United States long-term 
objectives in the Black Sea region dramatically hinders 
American initiatives in this area, and Bruce Jackson briefly 
mentioned some.
    Now, Mr. Chairman, on the Russian energy monopoly, which I 
believe is a very important yet often ignored hindrance to 
further reform in Georgia, Ukraine, and the Black Sea region, 
President Putin's policies indicate a desire to strengthen 
Russia's already strong position in the Eurasian and European 
energy markets. If Russian monopoly power increases across the 
Eurasian region, then countries will have difficulty resisting 
Russian political and economic pressure. Similarly, if Russian 
market power within the European gas sector increases, then the 
Europeans will be even less willing than they are now to lean 
on Russia when Moscow's policies toward the Eurasian countries 
undermine the sovereignty and independence of these states.
    Armenia is already facing this problem of Russian energy 
leverage. Post-revolution Ukraine and Georgia, as well as 
others in Central Asia, and even the Baltic countries are 
beginning to grasp the need to quickly come up with 
comprehensive energy security plans.
    While many of these countries want to ensure their energy 
security, without strong political support from the United 
States and the European Union, they will not be able to resist 
the Russian pressure. Moreover, those individuals and 
corporations who currently benefit from nontransparent energy 
deals with the Russian firms currently have no incentive to 
give up their power, which would make Western support for 
democratic governance even more important.
    The United States needs to be aware that Russian gas 
monopoly, Gazprom, wants to control the gas markets of Georgia, 
Turkey, and Ukraine to form a strategic ring around the Black 
Sea which would then be under permanent Russian energy control. 
I would then strongly recommend the United States to include 
Eurasian energy strategy in its trans-Atlantic dialog. The 
United States has already helped Georgia and Azerbaijan with 
their energy diversification by supporting the East-West energy 
corridor, by which Azerbaijani oil and gas will soon be 
transported via Georgia and Turkey to world markets, thus 
breaking up the Russian monopoly. Now the United States ought 
to further extend the East-West corridor from central Asia to 
Europe, a corridor with the Black Sea region at its heart.
    Second, Mr. Chairman, I have followed the developments in 
Armenia and Azerbaijan closely since 1996, and I believe that 
until the Karabakh issue is resolved, it will be very difficult 
to see real progress in democratic and economic reform. Both 
countries' politics are totally consumed by this issue, and 
both sides believe time is on their side. As a result, neither 
one wants to make a concession, which is a dirty word in that 
part of the world. The main losers are the youth of these 
countries, who are spending their most productive years in 
waiting.
    To change political and economic conditions on the ground, 
and the calculations of the two sides, the United States needs 
to get engaged at the highest levels. In addition, the solution 
to Karabakh requires democratic process in both Armenia and 
Azerbaijan so that the governments have legitimacy in the eyes 
of their people, which is essential for support for the final 
agreement. The United States, therefore, needs to encourage the 
leaders of these two countries to embrace the democratization 
process as essential to regional security and stability.
    I will not spend much time on Armenia, as issues relevant 
to Armenia are well known here thanks to the work of the strong 
Armenian diaspora. I will simply mention that the strength of 
the diaspora cuts both ways, as it also limits U.S. ability to 
encourage democratic change in that country. The United States 
simply cannot put the same kind of pressure on President Robert 
Kocharyan as it was able to do with President Leonid Kuchma of 
Ukraine.
    Azerbaijan, however, has fewer friends here, as it does not 
have a major diaspora. Potentially it can be a great strategic 
partner to the United States. It is the only Muslim country 
with troops in Afghanistan, Iraq, and Kosovo. It is a secular 
democracy with a Shiite majority neighboring Iran. As many 
Azerbaijanis proudly state, theirs was the first secular 
democratic Republic in the Muslim world. Though short-lived, 
the 1918 Republic included opposition parties in the Parliament 
and allowed women to vote. It is an oil- and gas-rich country, 
and if it manages to spend its energy wealth wisely, Azerbaijan 
can become a great example for the rest of the oil-rich Muslim 
world.
    The November parliamentary elections could be a turning 
point in the United States-Azerbaijan relations. The Bush 
administration has made a strong commitment to prodemocracy 
forces throughout the region to support their cause for free 
and fair elections. Many in the opposition and civil society in 
Azerbaijan have been inspired and energized by recent events in 
Georgia and Ukraine, and expect the United States to deliver on 
its promises of democracy and freedom.
    Over the next 8 months, the United States needs to both 
assure Aliyev, President Ilham Aliyev of Azerbaijan, that 
Washington does not want to oust him, and at the same time be 
firm in supporting free and fair elections. As a start, the 
United States, together with the European Union, can ask 
Azerbaijan to allow the operation of at least one independent 
television station and to let the opposition hold meetings.
    In Georgia, the so-called Baker Plan, which was delivered 
by James Baker to his friend Eduard Shevardnadze and the 
leaders of the opposition, provided the framework for the 
critical November 2003 elections. Such an approach can also 
work in Azerbaijan.
    The United States should also be concerned about the 
November elections in Azerbaijan because if the secular parties 
in and outside the government lose more ground, the Islamists 
are elected to fill their place. As a leader of the opposition 
Popular Front Party, Ali Karimli, recently stated in 
Washington, with the secular political opposition activities 
restricted, Islamists are getting stronger. As he put it, 
quote, on Friday more than 3 or 4,000 people turn up at 
services in every mosque, in a country where I cannot gather 50 
people together for a meeting. This is worrisome in a country 
neighboring Iran, which experienced a similar development that 
brought in the Islamic Republic.
    Finally, Mr. Chairman, let me spend a couple of minutes on 
Turkey and the growing mistrust toward the United States, and I 
think as Bruce and others have mentioned, this I believe is 
going to be an increasingly important issue. As you know, after 
decades of NATO alliance and strategic partnership, Turkish-
American relations began deteriorating with the Turkish 
Parliament's refusal to allow United States troops to transit 
Turkey and into Iraq in March 2003, and deteriorated as the war 
in Iraq unfolded.
    There had been ups and downs in the relationship before, 
but the level of anti-Americanism in Turkey today is 
unprecedented. A recent BBC survey found that about 82 percent 
of Turks have a negative view of the Bush administration's 
policies and considered today's America to be one of the 
biggest threats in the world.
    The Turkish anger is primarily a result of the Iraq war, 
which many in Turkey opposed. Turkish concerns have focused on 
the presence of the several thousand PKK terrorists in northern 
Iraq. The United States has promised to eliminate the PKK 
terrorists, but so far has not made a move.
    Turks now associate Iraq with chaos and damage to their 
national interests, while the United States hails Iraq as a 
test case for spreading democracy and freedom in the world. 
This has led many Turks to associate American democracy and 
freedom initiative in the Middle East with an expansionist 
policy that will weaken Turkey. And this is part of the context 
for the Turkish reluctance to support United States or European 
initiatives for democracy in the Black Sea region.
    Many in Turkey were skeptical of the Georgian and Ukrainian 
revolutions, which they believed were managed by the United 
States. They fear that under the rubric of democratic alliance 
the United States is creating an anti-Russian alliance in the 
Black Sea region which will lead in instability and undermine 
Turkey's security in the region. Also, when the United States 
talks about democracy in the Black Sea region, Turks hear 
American naval presence, which they strongly oppose to be based 
in the Black Sea region.
    There has also been lack of bilateral dialog, and the first 
such meeting took place only recently in Washington with a 
visiting senior Foreign Ministry representative, and both sides 
agreed that more such discussions are necessary. At the same 
time, the United States needs to understand a much deeper 
psychological issue is at play, and this is why Turkey has been 
moving closer to Russia.
    The United States should not ignore the psychological 
hangups of former empires like Turkey and Russia. We still 
suffer from the 19th- or 20th-century views of strategic 
factors and do not share President Bush's vision of advancing 
democratic change in pursuit of freedom. Turkey and Russia fear 
being surrounded by a West hostile to their interests. Both 
oscillate between feelings of insecurity about their waning 
influence in global politics and a sense of strategic 
indispensability in Eurasia.
    Both have, in varying degrees, resented growing American 
presence in the Caucasus and central Asia, where they have 
historic, ethnic and religious ties, and a sense of 
entitlement. The last thing they want is to see the United 
States also enter the Black Sea region, which Turkey and Russia 
feel is their special zone of influence where they are the two 
major powers. Ultimately, both are status quo powers in terms 
of foreign policy who oppose change in the Black Sea region, 
mainly because in their recent past any change meant losing 
territory or influence.
    What Turkey needs more than anything is a carefully 
balanced message from the United States that Washington 
appreciates Ankara's importance and seeks partnership, but that 
Turkey's strategic importance will not shield it against the 
consequences of nasty behavior. In the Black Sea region, this 
means that Turkey needs to hear that Turkish and American 
interests overlap in terms of shared NATO values. But Turks 
also need to understand that the unchecked growth of anti-
Americanism is not acceptable.
    Anti-Americanism has grown in many countries since the Iraq 
war, but the tone and the depth of the anger in Turkey is the 
result of a number of other factors that have created a perfect 
storm. In fact, today Turkey's secular military, Islamists, 
leftists, and nationalists, forces that often oppose each 
other, have united in their common opposition to the United 
States.
    Maybe, the best example for understanding what is happening 
inside Turkey is a very quick look at the best-selling fiction 
in Turkey today, ``The Metal Storm.'' While it is fiction, 
Turkish and American Government leaders' names are used and the 
context is based on actual events. ``The Metal Storm'' is about 
a war the United States launches against Turkey in 2007 under 
the name ``Operation Sevres,'' which is the much-feared 
agreement signed at the end of the World War I, whereby the 
Western powers hoped to dismantle the Ottoman Empire. In the 
book, Armenians, Greeks, and Kurds are once again portrayed as 
fifth columns of Turkey who the West can use to destabilize 
Turkey.
    I won't go into more details about the book, which I have 
actually described at length, but I think it's important to 
understand this book because it's important in understanding 
the Turkish mindset today. With the EU reform process forcing 
fundamental changes in Turkey that exacerbate many people's 
sense of insecurity about their future and sense of certainty, 
this book has brilliantly captured the mood in Turkey.
    It also clouds effect in fiction by hinting at current 
issues of contention in United States-Turkish relations, 
including whether the tragic events of 1915 constitute the 
Armenian genocide, the unresolved Cyprus issue, and the 
developments in Iraq. Getting United States-Turkish relations 
back on track in the Black Sea region and beyond requires a 
Turkish leadership to put an end to the wild and destructive 
speculation portrayed in ``The Metal Storm.''
    There are also certain steps the United States can take. In 
the short term, the United States can take three steps to try 
to reverse the negative trends and restore a sense of 
partnership in relations with the United States. First, 
together with the Iraqi Government, the United States needs to 
find a formula to assuage the Turkish irritation with the 
continued PKK presence in northern Iraq. Until and unless the 
PKK issue is resolved, Turkish-United States relations cannot 
move to a better phase, and Turkey would continue to resist any 
United States initiatives in the Black Sea region.
    Second, given the prevalent Turkish view that the United 
States is running a campaign against Turkey, it would be very 
damaging if the Armenian genocide resolution passed the 
Congress this year. This year is the 90th anniversary of the 
tragic 1915 massacre, and certainly the Armenian diaspora 
groups would like to get recognition.
    However, such a resolution would play right into the hands 
of the growing set of anti-Americans and ultranationalists in 
Turkey. For the Black Sea region, it will mostly hurt the 
Turkish-Armenian rapprochement.
    Third, the United States needs to continue raising Turkish 
EU membership as part of the trans-Atlantic dialog and insist 
that Turkey should be accepted into the European Union on the 
merits. Turkey needs to be also assured it will not be swapped 
with Ukraine. This certainty is necessary for Turks to support 
Ukraine's and Georgia's ongoing democracy reforms and make the 
fundamental and institutional changes at home.
    Thank you.
    [The prepared statement of Ms. Baran follows:]

Prepared Statement of Zeyno Baran, Director, International Security and 
           Energy Programs, the Nixon Center, Washington, DC

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to appear before you today and share my views on the 
progress the countries of the Black Sea have made in their democratic 
reform process and on the impediments to further reform these countries 
face. I will also present some suggestions on how the United States can 
continue to advance its own security interests in this strategic 
region.
    I will not discuss developments in all the countries of this 
region, which includes the three South Caucasus countries (Armenia, 
Azerbaijan, and Georgia), Moldova, Ukraine, new NATO allies Bulgaria 
and Romania, and the two big powers, Turkey and Russia. I will 
concentrate on four principal issues:
    I. The recent revolutions in Georgia and Ukraine. Georgia's 
November 2003 Rose Revolution and Ukraine's 2004 Orange Revolution have 
inspired people and countries from throughout the region (especially 
Moldova) and around the globe.
    II. Russian energy monopoly over the European and Eurasian 
countries. This is one of the main impediments to the future success 
and prosperity of Georgia and Ukraine, as well as to the democratic 
future of the Black Sea region as a whole.
    III. The dangerous trend in Armenia and especially Azerbaijan. If 
Azerbaijan does not hold democratic parliamentary elections in the fall 
of 2005, Islamist forces may gain ground. Moreover, if there is no 
solution to the Karabakh issue over the next several years, Armenia and 
Azerbaijan may once again go to war.
    IV. The deterioration in the United States-Turkey bilateral 
relationship. Turkish mistrust of United States long-term objectives in 
the Black Sea region dramatically hinders American initiatives in this 
area.

                   I. GEORGIA: INSPIRATION FOR CHANGE

    Mr. Chairman, I was an election observer during the November 2003 
parliamentary elections in Georgia and saw firsthand how tens of 
thousands of people refused to accept the theft of their votes and the 
silencing of their voices. More than anything, the Georgian people no 
longer wanted to live in a ``failing state''; they feared that if the 
post-Communist regime stayed in office any longer, the damage would be 
such that they would forever lose the prospect of reuniting with 
Europe, where they believed they belonged.
    The Rose Revolution was not a movement led or even inspired by the 
United States; it was a domestic uprising against a corrupt and weak 
regime that was rotting internally and could not deliver on any 
promises to restore stability and economic growth and bring Georgia 
closer to the transatlantic community. Its internal weakness was 
exploited by Russian companies as they took over strategic assets, 
tying the country's economy and future directly to Moscow--just as they 
had previously done in Belarus and Armenia.
    Yet, over the course of a decade, American assistance was 
essential, especially to preparing a cadre of reformers, both inside 
and outside government. Current President Mikheil Saakashvili received 
training and strong support for his overarching reforms in the judicial 
sector when he was Minister of Justice. Former Prime Minister and 
parliamentary speaker Zurab Zhvania, who recently died in a tragic 
accident, similarly benefited from his close work with the American 
assistance community. These are just some of the many Georgians who, 
over this period, developed personal relations with American leaders, 
while discovering that both sides shared the same values and 
principles. Based on these experiences, these Georgians took the 
initiative to move their country in a positive direction, both while in 
government and in the opposition. Following this example, then, I 
strongly urge that the United States assist reformers within 
governments, not just those in NGOs or in opposition parties.
    The Georgian revolutionaries were indeed committed to the ideal of 
a democratic revolution, and wanted to share it with their country's 
strategic partner, Ukraine. Soon after the ``Rose Revolution'' of 
November 2003, even before he was inaugurated as President, Saakashvili 
made Kyiv his first foreign destination in January 2004. In fluent 
Ukrainian, Saakashvili confidently predicted that Ukraine would become 
democratic over the next year, while pledging his support for his 
friend, Viktor Yushchenko. While few in the West (or in Russia) 
noticed, over the next year Georgians and Ukrainians, in government as 
well as in civil society, worked together to ensure Ukraine's 
democratic triumph. While many in the West (and in Russia) looked down 
on the state of Ukrainian civil society, Georgians knew that they had 
helped inspire this European nation and reawaken its quest to reclaim 
its place in the West on the basis of the same shared values and 
principles. When the Georgian President, Prime Minister, and other 
officials met with their American counterparts over that period, they 
urged United States support for Ukraine's democratic voices. They knew 
that if Georgia remained the sole island of democratic change in the 
Black Sea region, it would be very tough to succeed, especially given 
the Russian pressure.
    Now Saakashvili and Yushchenko want to support others who want to 
move in a prodemocratic direction by aggregating their voices to obtain 
more attention from the European Union and the United States. This is 
precisely what happened with the Moldovan parliamentary elections on 
Sunday, March 6. Both Saakashvili and Yushchenko met with President 
Voronin just ahead of the elections in order to provide support for a 
leader who seeks to reintegrate Moldova into Europe. It is no 
coincidence that Saakashvili and Voronin were the only Presidents of 
the former Soviet countries who did not accept the falsified second-
round election results that declared former Prime Minister Viktor 
Yanukovych as the winner of the Ukrainian elections in November. Nor is 
it surprising that they in turn were also the first to congratulate 
Yushchenko for his eventual victory.
    But the situation in Moldova is complicated. While Voronin is head 
of the Communist Party of Moldova, he has distanced Moldova from Moscow 
in recent years in pursuit of Moldova's European vocation. His 
underlying goal may have been to preempt any democratic revolution by 
playing Moldova's European card. In contrast to Georgia and Ukraine, 
Moldova is thus pursuing an evolutionary rather than a revolutionary 
reform process. But the country's progress toward democracy is no less 
real.
    As Saakashvili stated, Georgia, Ukraine, and Moldova now together 
believe that ``we can complete democratization's third wave in Eastern 
Europe.'' \1\ Completing this wave means that each country has 
committed to fighting crime, corruption, and the influence of clans 
that has led these countries to internal weakness and external 
vulnerability; it means that each country must consolidate democratic 
gains and move closer to the Euro-Atlantic institutions; and it means 
that each country needs the continued support of the European Union and 
the United States to succeed.
---------------------------------------------------------------------------
    \1\ Vladimir Socor, Wall Street Journal Europe, ``The Moldovan 
Front: Next Test for Post-Soviet Democratization.'' March 4-6, 2005.
---------------------------------------------------------------------------
    The sustainability of the Georgian and Ukrainian revolutions is 
essential for others in the Black Sea region to follow a reformist 
trend, whether revolutionary or evolutionary. For this sustainability, 
Georgia and Ukraine have submitted their EU action plans--plans that 
need to be seriously considered, as the prospect of eventual EU 
membership will provide the necessary incentive for both countries to 
undertake tough but necessary reforms. The United States needs to 
support, and to urge its European allies to support, both Georgia and 
Ukraine in their EU process as well as in their implementation of the 
NATO Individual Partnership Action Plans (IPAP), which pave the way for 
their eventual alliance membership.
    Second, the United States needs to work closely with its European 
allies to urge the resolution of the separatist conflicts in the 
Georgian regions of Abkhazia and South Ossetia, as well as the Moldovan 
region of Transnistria. It is encouraging to see Ukraine and Romania 
cooperating on the issue of Transnistria, and to see the recently 
founded New Group of Friends of Georgia (consisting of Poland, Romania, 
Bulgaria, Estonia, Latvia, and Lithuania) taking the lead in urging 
Brussels and Washington to pay attention to these issues. In fact, 
these former Soviet-bloc states that have now joined the European Union 
(Bulgaria and Romania are expected to join in 2007) and NATO have 
become the most visionary and constructive of America's European 
allies. They are also helping the Europeans to better understand Russia 
and are urging the resolution of these frozen conflicts, without which 
further democratic reforms are difficult, to say the least. As long as 
these conflicts remain, they will be sources of potential instability 
and of potential Russian pressure.
    Senator Richard Lugar's resolution on Russian troop withdrawal from 
Georgia and Moldova, urging it to implement the 1999 OSCE agreement to 
withdraw its troops from these two countries, is extremely timely and 
very important as the existence of the Russian military forces have 
become a hindrance to peace. One of the four Russian bases in Georgia 
has been vacated, the status of the second is in dispute, and talks are 
ongoing regarding the remaining two. Yet after 6 years, Russian troops 
still remain in both countries, and discussions on troop withdrawal are 
often held in parallel with other political concessions.
    The United States also needs to at the high levels engage the 
European Union and NATO to ensure a new Border Monitoring Mission (BMO) 
in Georgia to replace the OSCE mission, which, following the Russian 
veto, will terminate in May. The BMO has been critical to the effort to 
obtain credible information on Georgia's borders with the Russian 
Republics of Chechnya, Daghestan, and Ingushetia. Moreover, in the 
past, it was thanks to these monitors that the West found out that 
Russian planes had bombed Georgian territory. The United States needs 
to help find a mechanism to replace the BMO; there are several European 
countries that are willing to step up to the task, but none wants to 
take the lead for fear of drawing Russia's wrath.
    Georgia, Ukraine, and Moldova are also eager to revive the GUUAM 
organization, consisting of Georgia, Ukraine, Uzbekistan, Azerbaijan, 
and Moldova, an effort for which they need United States political 
support. As GUUAM is perceived in Moscow to be an alliance against 
Russian interests, Uzbekistan and Azerbaijan at this point are not 
interested in reviving it in a political form; they instead want to 
increase cooperation in the economic sphere, especially regarding east-
west transportation corridors. While Georgia, Ukraine, and Moldova may 
prefer to include security and democratization issues in GUUAM, in 
order to avoid a breakup of the organization and to instead utilize it 
as much as possible, an initial focus can be energy--an area in which 
the United States can be particularly helpful.

                      II. RUSSIAN ENERGY MONOPOLY

    Mr. Chairman, a very important yet often ignored hindrance to 
further reform in Georgia, Ukraine, and the Black Sea region is the 
effects of the Russian energy monopoly in Europe and Eurasia. The West 
ignored the clear intentions of Anatoly Chubais, head of Russia's RAO 
UES, who declared in September 2003 that ``Russian business ought to be 
allowed to expand . . . with the aim of creating a liberal empire'' in 
the former Soviet sphere. In addition to such an expansion of Russian 
energy monopolies, over the last year Russia's largest oil company 
Yukos has been dismantled and through Rosneft its assets consolidated 
under Kremlin control. When Rosneft merges with Gazprom, Putin will be 
in direct control of the world's largest integrated oil and gas 
company.
    Putin's policies indicate a desire to strengthen Russia's already 
strong position in the Eurasian and European energy markets. If Russian 
monopoly power increases across the Eurasian region, then countries 
will have difficulty resisting Russian political and economic pressure. 
Similarly, if Russian market power within the European gas sector 
increases, then the Europeans will be even less willing than they are 
now to lean on Russia when Moscow's policies toward the Eurasian 
countries undermine the sovereignty and independence of these states.
    Armenia and Belarus are already facing this problem of Russian 
energy leverage. Post-revolution Ukraine and Georgia, as well as the 
central Asian and even the Baltic countries, are beginning to grasp the 
need to quickly come up with comprehensive energy security plans.
    While many of these countries want to ensure their energy security 
by diversifying their sources away from Russia, without strong 
political support from both the United States and the European Union, 
they will not be able to resist the Russian pressure. Moreover, those 
individuals and corporations who currently benefit from nontransparent 
energy deals with the Russian firms currently have no incentive to give 
up their power, which would make Western support for democratic 
governance even more important.
    The United States needs to be aware that Gazprom wants to control 
the gas markets of Georgia, Turkey, and Ukraine to form a strategic 
ring around the Black Sea, which would then be under permanent Russian 
energy control. Georgia is the gateway through which Caspian gas will 
be able to enter to Turkey and then be transported onward to the 
European markets. However, it is also the weakest link in this Black 
Sea chain. The difficult economic conditions prevailing in Georgia have 
given Gazprom a great opening to try and acquire the title to the 
Georgian gas pipelines, thus bolstering its monopoly power. If Tbilisi 
unintentionally helps Gazprom in this effort, then Georgia will only be 
enhancing the company's long-term leverage over European gas consumers, 
and thus discouraging Europeans from taking a firmer line with Russia 
on political issues, such as the frozen conflicts mentioned earlier.
    The United States should therefore include Eurasian energy strategy 
in its transatlantic dialog. The United States helped Georgia and 
Azerbaijan with their energy diversification by supporting the East-
West energy corridor, by which Azerbaijani oil and gas will soon be 
transported via Georgia and Turkey to world markets, thus breaking up 
the Russian monopoly. Now, the United States ought to further extend 
the East-West corridor from central Asia to Europe, a corridor with the 
Black Sea region at its heart.
    While gas is more directly relevant to strategic considerations in 
the South Caucasus and European countries, the situation is similar in 
the oil sector. Ukraine needs the most help in this area; it had 
constructed the Odesa-Brody oil pipeline to transport Caspian oil to 
European markets; yet, under Russian pressure, the Kuchma government 
last year agreed to its reversal so that Russian oil could be 
transported to the Black Sea. While commercial reasons were presented 
as justification for the reversal, it is more likely that it was done 
in consideration for Russian political support to the Yanukovych 
Presidential campaign. This is apparent by the fact that, over the past 
several months, the Russians have not put enough oil into the line to 
make it profitable; expectations were that it would supply half the 
amount it originally pledged for 2005.
    The Yushchenko government recently announced--at a joint press 
briefing of the Ukrainian and Georgian Prime Ministers--that Odesa-
Brody would be reversed back to its original direction. On March 4, the 
Ukrainian and Polish Prime Ministers also agreed to the extension of 
the pipeline to the Polish city of Plock. In this way, Poland will also 
be able to diversify away from Russian oil. Despite its intentions, 
Ukraine will be unable to make the reversal happen on its own; it needs 
American political support, which can help facilitate an 
intergovernmental agreement between Kazakhstan, Ukraine, and Poland 
that will ensure supplies on one end of the pipeline, and markets on 
the other end, thus making it commercially viable.

          III. ARMENIA AND AZERBAIJAN: TIME IS ON NEITHER SIDE

    Mr. Chairman, I have followed developments in Armenia and 
Azerbaijan closely since 1996 and believe that until the Karabakh issue 
is resolved it will be very difficult to see real progress in 
democratic and economic reform. Both countries' politics are totally 
consumed by this issue and both sides believe time is on their side; as 
a result, neither one wants to make a concession--which is a dirty word 
in that part of the world. The main losers are the youth of these 
countries, who are spending their most productive years waiting.
    Azerbaijan is told by the West that it lost Karabakh in the war and 
needs to give up this piece of land for the sake of peace and 
prosperity and move on with its EU and NATO integration process. This 
kind of talk only hardens the nationalists, who believe that with 
massive oil and gas revenues starting to flow into the budget over the 
next several years, they can strengthen their military, and take back 
their land. Given that there are already four U.N. resolutions 
supporting Azerbaijani territorial integrity, if they play the oil card 
well, they may have a chance in getting diplomatic support. Hence, they 
believe the best strategy for them is to bide their time.
    Armenia too believes time is on its side to turn Karabakh's de-
facto separation from Azerbaijan to de jure acceptance. They do not 
think Azerbaijan would risk a war when its oil and gas pipelines may be 
attacked and its economy devastated. Armenia also can wait, as its 
economy has grown despite having no trade with two of its neighbors--
Azerbaijan and Turkey. While Armenia wants to resume economic relations 
with Azerbaijan as a best confidence-building mechanism, Azerbaijan 
claims that the refusal to have economic relations is the only peaceful 
mechanism they have to keep Armenia at the negotiating table. 
Azerbaijan's strategic partner Turkey has also closed its borders with 
Armenia, and will also not open them until the Karabakh issue is 
resolved.
    To change the political and economic conditions on the ground and 
the calculations of the two sides, the United States needs to get 
engaged at the highest levels. In 2002 Presidents Bush and Putin issued 
a joint statement on the need to resolve the frozen conflicts of 
Abkhazia and Karabakh, but no further steps were taken. The Karabakh 
process has been left to the OSCE Minsk group, which cannot deliver a 
solution, as the issue requires top level discussions. While it is good 
to keep the dialog going between Armenia and Azerbaijan, failure to 
deliver a solution is leading to massive frustration among the people 
and hurting the image of the OSCE.
    In addition to a committed Bush-Putin discussion, the solution to 
Karabakh requires democratic progress in both Armenia and Azerbaijan so 
that the governments have legitimacy in the eyes of their people, which 
is essential for support for the final agreement. The United States, 
therefore, needs to encourage the leaders of these two countries to 
embrace the democratization process as essential to regional security 
and stability.
    I will not spend much time on Armenia, as issues relevant to 
Armenia are well known here thanks to the work of the strong Armenian 
diaspora. I will simply mention that the strength of the diaspora cuts 
both ways, as it also limits U.S. ability to encourage democratic 
change in this country. The United States simply cannot put the same 
kind of pressure on President Robert Kocharyan as it was able to do 
with President Leonid Kuchma of Ukraine; it is inconceivable to think 
that Washington would threaten to keep senior Armenian Government 
officials out of the United States in case of falsified elections.
    Azerbaijan, unlike Armenia, has fewer friends in the United States 
as it does not have a major diaspora; however, potentially it can be a 
great strategic partner. Azerbaijan is the only Muslim country with 
troops in Afghanistan, Iraq, and Kosovo. It is a secular democracy with 
a Shiite majority neighboring Iran. As many Azerbaijanis proudly state, 
theirs was the first secular democratic republic in the Muslim world. 
Though short-lived, the 1918 republic included opposition parties in 
the Parliament and allowed women to vote. It is an oil and gas rich 
country and if it manages to spend its energy wealth wisely, Azerbaijan 
can become a great example for the rest of the oil-rich Muslim world.
    The November parliamentary elections could be a turning point in 
the United States-Azerbaijan relationship. The Bush administration has 
made a commitment to prodemocracy forces throughout the region to 
support their calls for free and fair elections. Many in the opposition 
and civil society have been inspired and energized by recent events in 
Georgia and Ukraine and expect the United States to deliver on its 
promises of democracy and freedom. The government, however, is nervous 
that opposition will receive support from the United States and 
possibly try to have a revolution as well. Given that there is no 
fundamental difference between President Ilham Aliyev and the leaders 
of the pro-Western opposition groups, with a correct engagement 
strategy, the United States can help move the country in a positive 
direction.
    At the same time, many people are benefiting from the current 
corrupt, clan-based system in Azerbaijan and these forces will try 
their best to avoid free and fair elections in November, which will be 
a turning point for Azerbaijan. In fact, since Aliyev succeeded his 
father in the October 2003 Presidential elections there has been a 
crackdown on media and opposition activists; this has led many to 
wonder whether Aliyev is not fully in charge of his government or 
whether he himself sanctions these policies. The most brutal incident 
so far occurred last week, when Elmar Huseinov, the editor in chief of 
the Azerbaijani opposition magazine Monitor was shot dead in front of 
his home in Baku. Aliyev blamed ``internal and external forces'' that 
want ``to deliver damage to Azerbaijan's international image, to 
discredit it before the parliamentary elections and present the country 
as an unstable and nondemocratic state, where freedom of speech is 
violated and acts of terrorism are committed.'' \2\ It is highly 
unlikely that Aliyev himself was involved in this murder, and it is 
critical for him to make sure the killers of Huseinov are found and 
properly punished so that neither his nor his government's image is 
further damaged.
---------------------------------------------------------------------------
    \2\ Baku Today, ``President Calls for Speedy Investigation into 
Journalists Murder.'' March 3, 2005.
---------------------------------------------------------------------------
    Over the next 8 months the United States needs to both assure 
Aliyev that Washington does not want his ouster, and at the same time 
be firm in supporting free and fair elections. As a start, the United 
States, together with the European Union, can ask Azerbaijan to allow 
the operation of at least one independent television station, and to 
let the opposition hold meetings. In Georgia the so-called Baker Plan, 
which was delivered by James Baker to his friend Shevardnadze and the 
leaders of the opposition, provided the framework for the critical 
November 2003 elections. Such an approach can also work in Azerbaijan.
    The United States should also be concerned about the November 
elections in Azerbaijan because if the secular parties in and outside 
the government lose more ground, the Islamists are likely to fill their 
place. As the leader of the opposition Popular Front Party, Ali Karimli 
stated in his talk at the Nixon Center on February 15, 2005, with the 
secular political opposition's activities restricted, Islamists are 
getting stronger. As Karimli put it, ``on Fridays more than 3 or 4,000 
people turn up at services in every mosque, in a country where I cannot 
gather 50 people together for a meeting!'' He also mentioned, and as I 
have observed in my recent visits, the Islamists are gaining ground 
because they exploit the Karabakh issue, arguing that even though 
Azerbaijani territory is invaded and there are four U.N. resolutions 
about it, ``because we are Muslim, our rights are not respected''; 
second, the Islamists highlight the ``extreme poverty and the huge 
inequality between the average person and the top 1 or 2 percent who 
own everything''; and third, they take advantage of the fact that ``no 
one seems to care'' about democracy in the country.\3\ These are all 
worrisome signs in a country neighboring Iran, which experienced a 
similar development that brought in the Islamic Republic.
---------------------------------------------------------------------------
    \3\ Nixon Center Program Brief, ``Getting Azerbaijan Right.'' 
February 15, 2005.
---------------------------------------------------------------------------
           IV. TURKEY: GROWING MISTRUST OF THE UNITED STATES

    After decades of NATO alliance and strategic partnership, Turkish-
American relations began deteriorating with the Turkish Parliament's 
refusal to allow United States troops to transit Turkey and into Iraq 
in March 2003, and deteriorated as the war in Iraq unfolded. There had 
been ups and downs in the relationship before, but the level of anti-
Americanism in Turkey today is unprecedented. A recent BBC survey found 
that about 82 percent of Turks have a negative view of the Bush 
administration's policies and consider today's America to be one of the 
biggest threats in the world.
    This Turkish anger is primarily a result of the Iraq war, which 
many in Turkey opposed. They initially feared their neighbor turning 
into an ethnic and religious war zone. Turkish concerns have focused on 
the presence of the several thousand PKK terrorists in northern Iraq. 
The United States has promised to eliminate the PKK terrorist threat in 
Iraq, but so far has not made a move. After a brutal civil war with its 
Kurdish population that lasted a decade and cost over 30,000 lives, 
Turks are angered with the United States for not taking action against 
a group that already began terrorist operations inside Turkey. They are 
therefore wondering whether the ``global war on terror'' is waged only 
on groups that threaten the United States and excludes groups that 
threaten only U.S. allies.
    In addition, Turks fear the Kurds in Iraq may eventually establish 
an independent state that would also appeal to Turkey's own Kurds 
living in the border areas; such a development could once again lead to 
separatism and instability inside Turkey, potentially rekindling civil 
war and even undermining Turkey's territorial integrity. The fact that 
the oil-rich city of Kirkuk is gradually coming under Kurdish control 
and the Turkmen--their ethnic brethren--living in Kirkuk are being 
discriminated against, further causes suspicion and mistrust toward the 
United States.
    Turks now associate Iraq with chaos and damage to their national 
interests, while the United States hails Iraq as a test case for 
spreading democracy and freedom in the world. This has led many Turks 
to associate American democracy and reform initiatives in the Middle 
East with an expansionist policy that will weaken Turkey, but cloaked 
in the rhetoric of ``freedom'' and ``justice.'' Fearing further chaos 
and change in its southern neighborhood, Turkey has even pulled closer 
to Syria and Iran.
    This is part of the context for the Turkish reluctance to support 
United States or European initiatives for democracy in the Black Sea 
region. Many in Turkey were skeptical of the Georgian and Ukrainian 
revolutions, which they believe were managed by the United States. They 
fear that under the rubric of ``democratic alliance,'' the United 
States is creating an anti-Russian alliance in the Black Sea region, 
which will lead to instability and undermine Turkey's security in this 
region. Second, when the United States talks about democracy in the 
Black Sea region, Turkey hears American naval presence. Turkey is 
strongly opposed to any foreign military presence in the Black Sea, 
which it fears will undermine the Treaty of Montreaux of 1936, which 
designated the Turkish Straits as an international waterway but 
afforded Turkey rights to impose safety regulations. Retaining some 
jurisdiction over the Bosporus and Dardanelles remains one of the 
highest priorities of Turkish national security policy, as it has since 
1453.
    United States-Turkish tension is aggravated by a lack of dialog. 
There have been few discussions on the Black Sea region at governmental 
levels; the first one in several years took place only in the last week 
of February when Ambassador Halil Akinci, the Turkish Foreign 
Ministry's Director for Russia, Caucasus and central Asia visited 
Washington. In his meetings Akinci stated that Turkish policy in the 
Black Sea region is based on four pillars: ``Contributing to the 
consolidation of state building; supporting political and economic 
reforms; promoting the Black Sea States' integration with the 
international community; developing and enhancing bilateral relations 
on the basis of equality, mutual interest and respect for 
sovereignty.'' \4\ Given that this Turkish vision and the American 
vision are at the core complementary, more bilateral discussions need 
to be held between diplomats, military and the civil society so that 
the Turks can understand these interests are shared.
---------------------------------------------------------------------------
    \4\ Nixon Center Program Brief, ``Turkish View of Russia and 
Eurasia.'' February 25, 2005.
---------------------------------------------------------------------------
    At the same time, the United States needs to understand a much 
deeper psychological issue is at play, and this is why Turkey has been 
moving closer to Russia. The United States should not ignore the 
psychological hangups of former empires like Turkey and Russia, which 
still suffer from the 19th/20th century views of strategic factors and 
do not share Bush's vision of advancing democratic change in pursuit of 
freedom. Turkey and Russia still pine over lost lands and fear being 
surrounded by a West hostile to their interests. Both oscillate between 
feelings of insecurity about their waning influence in global politics, 
and a sense of strategic indispensability in Eurasia. Both have in 
varying degrees resented growing American presence in the Caucasus and 
central Asia, where they had historic, ethnic, and religious ties and a 
sense of entitlement. The last thing they want is to see the United 
States also enter the Black Sea region, which Turkey and Russia feel is 
their ``special zone of influence'' where they are the major powers. 
Ultimately, both are status quo powers in terms of foreign policy who 
oppose change in the Black Sea region, mainly because in their recent 
past any change meant losing territory or influence.
    What Turkey now needs, more than anything, is a carefully balanced 
message from the United States that Washington appreciates Ankara's 
importance and seeks partnership, but that Turkey's strategic 
importance will not shield it against the consequences of nasty 
behavior. In the Black Sea region, this means that Turkey needs to hear 
that Turkish and American interests overlap in terms of shared NATO 
values. But Turks also need to understand that the unchecked growth of 
anti-Americanism is not acceptable. Anti-Americanism has grown in many 
countries since the Iraq war, but the tone and the depth of the anger 
in Turkey is a result of a number of other factors that have created a 
perfect storm. In fact, today Turkey's secular military, Islamists, 
leftists, and nationalists--forces that often oppose each other--have 
united in their common opposition to the United States. Why?
    Maybe the best example for understanding what is happening inside 
Turkey is a brief look at the best selling fiction in Turkey today, 
``The Metal Storm.'' While it is fiction, Turkish and American 
government leaders' real names are used and the context is based on 
actual events. ``The Metal Storm'' is about a war the United States 
launches against Turkey in 2007 under the name ``Operation Sevres,'' 
which is the much-feared agreement signed at the end of the World War I 
whereby the Western powers hoped to dismantle the Ottoman Empire. In 
the book Armenians, Greeks, and Kurds are once again portrayed as fifth 
columns of Turkey who the West can use to destabilize Turkey.
    The American operation against Turkey begins when the Turkish 
military enters northern Iraq after the attacks in Kirkuk on non-Kurds, 
i.e., Turkmen, have increased significantly. The United States does not 
diplomatically oppose the Turkish move as it is about to attack Syria. 
Moreover, the United States has been running a psychological campaign 
against Turkey for some time and uses this opportunity to portray the 
Turks as the aggressors, even though it is the United States that 
launches a brutal attack on them. It is interesting to note that the 
book makes clear that by that point in 2007, Nicholas Sarkozy has 
become France's President, and afterward the European Union ended talks 
with Turkey, which in turn has moved away from the West. The Turkish 
Government has withdrawn its Ambassador to the United States as a 
result of the Armenian genocide resolution that passes the United 
States Congress. As part of the campaign against Turkey, the United 
States was also portraying Turks are wrong in Cyprus.
    Now, while for many in the United States such scenarios may be far-
fetched, to say the least, in the Turkish context they are quite 
believable. Since this book was published a few months ago, there have 
been several TV shows in the United States where the Turks were 
portrayed as terrorists, which was taken as a sign of a psychological 
operation against Turkey. Only a few days ago Sarkozy, who is the most 
likely candidate to be France's next President, received a huge 
applause when he objected to Turkey's EU membership. The list goes on.
    In the book there are two more reasons for the United States to 
launch a war on Turkey. The first is to ``liberate Istanbul from 500 
years of occupation by the Turks'' and let the Evangelical Church 
construct the biggest ever church in this city. At secret meeting in 
Vatican called ``The New Byzantium,'' the church decides to re-
Christianize Anatolia, which has many holy Christian sites. Again, 
while this theory sounds almost insane, many in Turkey do not 
understand the role of the Evangelical church in American politics and 
fear that President Bush was serious when he announced the beginning of 
a new crusade after the attacks of September 11, 2001. On top of this 
comes the EU's religious freedom reform pressure, which again, is 
perceived in Turkey as a way to ``Christianize'' Turkey. Consequently, 
those in Turkey promoting interfaith dialog have been accused of 
serving American and Western interests, not Turkish ones. (This is, of 
course, very unfortunate since Turkish moderate traditions and long 
history of interfaith acceptance can be the best antidote against the 
radicalism prevalent in many Muslim societies.)
    A second reason for the U.S. attack in the book is the American 
desire to move away from dependence on Middle Eastern oil and the need 
to develop new energy sources. Turkey has rich borax, uranium, and 
thorium mines; it has monopoly in borax, which is mainly used for space 
and weapons technology and, therefore, is a strategic mineral. While 
few in the United States ever think of these mines, many in Turkey, 
starting several years before this novel was published, have feared an 
eventual United States attack to take over these mines. It is probably 
not surprising that in the end of the book, Russia and Germany help 
Turkey by taking on a common diplomatic position against the United 
States--simply because they do not want the United States to control 
these mines and become even more powerful.
    Throughout the book honorable Turkish military and political 
leaders wondering how and why the United States would attack Turkey 
after decades of partnership. Turkish Prime Minister Recep Tayyip 
Erdogan and others are often portrayed as having difficulty grasping 
that the United States is indeed attacking Turkey. In several parts, 
the book states, ``For a long time there was speculative news about the 
United States plans on Turkey. Many people ignored these as fiction 
because it was considered so insane''; clearly this language is 
intended to make the story even more believable.
    I have spent a significant part of my testimony on ``Metal Storm,'' 
because it is essential in understanding the Turkish mindset today. 
What can the United States do when many Turks read this book and daily 
articles in the press that play on the softest spots in the Turkish 
psyche to create a sense of insecurity and fear of United States 
intentions?
    The average reader in Turkey has difficulty in separating fact from 
fiction and reports indicate many read the book as a prophetic one. 
With the EU reform process forcing fundamental changes in Turkey that 
exacerbate many people's sense of insecurity about their future and 
sense of certainty, this book has brilliantly captured the mood in 
Turkey. It further clouds fact and fiction by hinting at current issues 
of contention in United States-Turkish relations, including whether the 
tragic events of 1915 constitute the ``Armenian Genocide,'' the 
unresolved Cyprus issue, and developments in Iraq.
    Getting United States-Turkish relations back on track in the Black 
Sea and beyond requires the Turkish leadership to put an end to the 
breed of wild and destructive speculation portrayed in ``Metal Storm.'' 
Turkish political leaders need to step back and contemplate whether 
they truly believe the United States would contemplate the outlandish 
actions concocted by the authors of ``Metal Storm,'' who use references 
to actual American leaders and a deep familiarity with United States 
military technology to convey a sense of authority in their writing. 
Turkish leaders must then decide whether they must clarify to the 
Turkish people that wild speculation about a United States plan to 
dominate Turkey are divorced from reality. Perhaps this will lead to a 
genuine debate about the future of United States-Turkish relations, 
including in the Black Sea. Instead, Turkey's civilian and military 
leaders are silent, allowing thousands of Turkish readers to 
misperceive the book's ruminations as plausible, if not fact, and 
causing potentially serious damage to United States-Turkish relations. 
There is a danger that, as Turkey proceeds with democratic reforms 
required to advance its quest for EU accession, and as the hallowed 
role of the military decreases in Turkish politics, Turkish society may 
compensate these developments with growing anti-Americanism and anti-
Westernism.
    Hopefully, Turkey can come out of the process much stronger and as 
a valuable member.
    In the short term, there are three specific steps the United States 
can take to try to reverse these negative trends and restore a sense of 
partnership in relations with Turkey. First, together with the Iraqi 
Government, the United States needs to find a formula to assuage the 
Turkish irritation with the continued PKK presence in northern Iraq. 
Until and unless the P.K. issue is resolved, Turkish-United States 
relations cannot move to a better phase, and Turkey would continue to 
resist any United States initiatives in the Black Sea region.
    Second, given the prevalent Turkish view that the United States is 
running a campaign against Turkey, it would be very damaging if the 
Armenian Genocide resolution passed Congress this year. This year is 
the 90th anniversary of the tragic 1915 massacre and certainly the 
Armenian diaspora groups would like to get recognition. However, such a 
resolution would play right into the hands of the growing set of anti-
Americans and ultra-nationalists in Turkey. For the Black Sea region, 
it will mostly hurt the Turkish-Armenian rapprochement.
    Third, the United States needs to continue raising Turkish EU 
membership as part of the transatlantic dialog and insist that Turkey 
should be accepted into the European Union on the merits. Turkey needs 
to be assured that it will not be swapped with Ukraine; this certainty 
is necessary for Turks to support Ukraine's (and Georgia's) ongoing 
democracy reforms, and make the fundamental mental and institutional 
changes at home.

    Senator Allen. Thank you, Ms. Baran, for your provocative 
testimony as well. I'm going to ask each of you--and if one of 
you all, for whatever question that I may ask one of the other 
witnesses on this panel, if you would want to make a comment so 
that we--if you may have a slightly different point of view on 
it, you're certainly welcome to do so.
    Both Mr. Jackson and Mr. Socor--got to put another quarter 
in there to keep the lights on, this happens at 4 o'clock, I 
think, around here, a slide show or Cinderella turns into a 
pumpkin or something. Got it--talked about Russia as being a 
problem in--actually all three of you did in different ways. 
Mr. Socor was the most direct. Mr. Jackson brought it up. Your 
was, Ms. Baran, is what I was talking about, how they use their 
energy dominance as a way to jerk people around or keep them 
under their thumb.
    The one thing on the countries, Moldova, Georgia, the 
Transnistrian area, is a lot of this is the Russian--Russia 
simply completely ignoring any commitments they made. When we 
had Ambassador Tefft here, I was saying, oh, what's their 
reaction and so forth, and he's an ambassador and he's got to 
be diplomatic. The answer to the question is they--I see no 
action that indicates that they're going to do anything but 
drag their feet and keep their troops there because they want 
to keep that influence in these areas.
    We have been working in these areas, maybe not with the 
same intensity as the last few years or since 9/11, 2001, that 
changed everything. These areas--Armenia was always a concern 
because there are many Armenian-Americans in this country, so 
we're more aware of that. Turkey is clearly a key country, you 
pay attention to Turkey. It's an important country for a 
variety of reasons, economically as well as its size and its 
aspirations to join the European Union and, obviously, is a 
NATO country.
    Regardless, Mr. Jackson and Mr. Socor, on the issue of 
these countries, the Georgia issue, the Moldova issue, 
Transnistria issue, with all the efforts we've made, why in the 
heck have we been--and I don't want to just blame the United 
States for everything, you know, the United States can only 
have so much influence everywhere. It's not as if we all get--
we get two out of three of you all to agree and, therefore, it 
will be so. It's just not going to happen that way.
    But why have all these efforts been so fruitless in having 
the Russians abide by their commitments? And moreover, it's not 
just us. Why are not other NATO countries, other European 
countries also insisting on Russia? In other words, the 
international community that should care about the concept of 
sovereignty of countries and self-determination--now granted 
some of them won't, but there's more and more. Freedom's on the 
march. There's more free countries than there were back in 
1980.
    Why has Russia been able to get away with this? Why have 
they been able to abrogate, ignore these agreements to remove 
their troops? And if you two could answer whatever order you 
all want to, I'd like to get your perspectives.
    Mr. Jackson. Thank you, Mr. Chairman. It seems to me that 
we made a fundamental mistake as we came into this period by 
not putting clear red lines in for Russia where the limits were 
and what was acceptable and unacceptable boundaries. As a 
result, they have tended to probe and take advantage of us when 
we were preoccupied in the Middle East or where--and the 
European Union turns inward with the pressure of expansion and 
the West becomes preoccupied, there's a tendency to probe and 
take advantage.
    So we haven't made clear that there are consequences and 
held them to consequences. We note that the Syrians are 
withdrawing from Lebanon in a matter of weeks with 15,000 
troops. Russia has said it will take them 15 years to get 3,000 
troops out of Georgia and want $\1/2\ billion from the United 
States to pay for it. So clearly this is not a serious 
discussion.
    The point we have not made clear is you cannot harbor 19th 
century imperial neurosis and enjoy 21st century legitimacy. 
And the consequences that this body has considered is to bar 
Russia from access to international fora that require a certain 
level of democratic activity, such as the G-8, WTO, and other 
recognitions of legitimacy that they covet.
    Second, I think we have to take actions to devalue what 
they gain from these things. They profit from criminal 
enterprises. They profit from the instability of the states on 
their borders. This serves their purposes and they destroy 
institutions that compete, like the European Union or OSCE.
    I would strongly advise the NATO powers to put NATO 
surveillance into the Black Sea as we have in all the other 
seas of Europe. If those--if this trafficking cannot occur, 
there's no reason to have the bases and the traffickers there. 
When Georgia found that out, the peace started--the conflict 
started to be resolved where they just simply interdicted the 
trafficking lines, and then the criminal elements got bored and 
went home. So you have to disincentivize and devalue what 
Russia seeks in having these bases and having this control over 
these gray economies on their border.
    That's why I also think we should do what we can with our 
European allies to put the border monitors back into the 
Georgian borders so reactionary interests cannot exploit the 
vulnerability of these young democracies.
    Senator Allen. All right, if we did that--I do want to hear 
from you, Mr. Socor--that would be predicated on the European 
countries actually wanting to work in concert on that, whether 
NATO or--on a less than NATO basis. Do you see a willingness on 
the part of the European nations to actually assist--I'm 
talking about NATO. We've heard about Turkey. Would Turkey 
agree to that? And for that matter, would France, would the 
Netherlands, Italy, Spain, and others? Would we find some--
we're finding a commonality in interests in getting the Syrians 
out of Lebanon. France and the United States are absolutely 
together on that. But do you see that as a likelihood, or would 
this just be another thing that we're bickering with the 
Europeans on, who by the way ought to care more about this than 
we do, because it's right--heck, it's part of Europe.
    Mr. Jackson. Sir, I'm going to get in trouble on this, but 
my view is that Europeans would be interested in following if 
the United States started leading. And if we made clear that we 
are part--we agree to defend the Euro-Atlantic space together 
and this is part of the Euro-Atlantic space and these threats 
that emanate from this region are threats to the United States 
and Europe and we were serious about this, I am certain that 
European allies would come on.
    I think what they think today, is that we have a back-
channel partnership with Russia and a back-channel interest in 
Turkey and that we've cut deals on the side to allow this kind 
of special exemption, and if it's all right for us to cut 
deals, they're going to cut their deals, and probably with 
Putin on oil or economic interests. I think that to be good 
allies across the Atlantic we have to be forthright, we have to 
stand together when freedom is threatened and democracy is at 
risk. And I think this discussion, I hope the President began 
in his meetings in Brussels exactly on developing a new agenda 
of greater transparency and greater common causes, our European 
allies, there's no better region to begin than here.
    Senator Allen. Thank you.
    Mr. Socor.
    Mr. Socor. Thank you, Mr. Chairman. Bruce has zeroed in on 
some major reasons why we find ourselves in the present 
situation with regard to Russian troops and bases in Georgia 
and Moldova. I would like to add a couple of considerations.
    The existing conflict settlement negotiating frameworks and 
peacekeeping mechanisms were created by Russia, on a one-on-one 
basis with the target countries, these helpless target 
countries, during the 1990s. These structures are relics of a 
bygone era. Nobody in the 1990s would have imagined that NATO 
and the European Union would enlarge the way they have and that 
their interests in these countries would increase in an 
exponential manner. The increase in Euro-Atlantic interest in 
these countries has overtaken, greatly overtaken, those 
obsolete conflict settlement and----
    Senator Allen. Say that again. Start that sentence again so 
I can understand you. Say it again.
    Mr. Socor. Those peacekeeping and conflict settlement 
mechanisms are relics of a bygone era of the 1990s----
    Senator Allen. Right.
    Mr. Socor [continuing]. When the enlargement of NATO and 
the European Union was not on the agenda, was not foreseeable, 
now Euro-Atlantic interest in these two countries have 
increased exponentially and have overtaken those peacekeeping 
and conflict settlement mechanisms. Those need to be simply 
jettisoned. We cannot afford tinkering with them, getting 
bogged down in procedural issues, adding a couple of observers 
to the existing settlements, continuing to treat, for example, 
Moldova and Transnistria or Georgia's Abkhazia as coequal 
parties, getting them together, imploring Russia, maybe, to get 
them together.
    Senator Allen. OK.
    Mr. Socor. That's a thing of the past.
    Senator Allen. OK, all right. Let me--then from this, let 
me ask you all this question then. For countries like Georgia, 
Moldova, which elected a Communist government, they had free 
elections, they elect Communists. I'm not sure how good that 
will be for investment in their country, but it's their 
country. Different states do different things in this country, 
too, nothing like that, but regardless, that's representative 
democracy.
    The others have to make a better claim. So long as you have 
free elections and people vote that way, that's what you get. 
Now, the question is, is the motivation for people--and this 
is--Baran mentioned this as well in a roundabout way with 
Turkey--but can you motivate--will the people in Georgia, the 
people in Moldova, the people in Ukraine and Azerbaijan, 
Armenia, all on different levels, would accession to being in 
the European Union, not so much maybe NATO--some might want to 
get into NATO, which would be actually wonderful.
    But we've seen in Central Europe, what we call--used to be 
called Eastern inaccurately, it's Central Europe. I'm talking 
about from Bulgaria, Romania on up to the Baltics, those 
countries with the benchmarks and the criteria they needed to 
make the reforms they need to make to get into NATO, to get 
into the European Union, was it seen by their leaders and by a 
majority of the people in their countries as something they 
would want to aspire to? We called them aspirant countries.
    Mr. Socor. Yes, it's----
    Senator Allen. It wasn't as if we were taking them in. They 
wanted to get in, and they had to meet certain benchmarks. Is 
that motivation still there----
    Mr. Socor. Yes, very much so.
    Senator Allen [continuing]. On the part of these countries? 
If so, that is one way to not just have it just externally come 
in--obviously you have to deal with the Russians--but to 
actually effectuate the will of the people, which makes it a 
lot easier than if we're just talking here or talking at 
different confabs as to what people ought to want to do. If 
they generally want to do it themselves, it makes it much 
easier to effectuate that shared goal.
    Mr. Socor. Yes. The prospect of European integration is of 
course--of course exerts a magnetic force of attraction.
    Senator Allen. Well, is it enough of a magnetic attraction 
to offset the leverage that Russia can impose upon them----
    Mr. Socor. Not really.
    Senator Allen [continuing]. Whether it's for energy or 
militarily?
    Mr. Socor. It's not enough for a number of reasons. The 
more these countries advance on the road of reforms, the 
greater the gulf separating these reforming countries from the 
secessionist enclaves, which are not reforming. So the gulf 
between them will deepen. That's one thing.
    Second, the generation is growing up there which no longer 
has a sense of belonging to the same country as the generations 
on the other side.
    Third, the Russian troop presence becomes, by default, the 
new status quo. The mere duration of this presence has the 
unintended effect of legitimizing it by----
    Senator Allen. Legitimizing it?
    Mr. Socor. Conferring it a spurious appearance of 
legitimacy.
    Senator Allen. However, don't--I'll ask all three of you--
wouldn't the people of these countries, Moldova maybe not, but 
at least Georgia want--the people of Lebanon rose up. It was 
remarkable their bravery and courage. And I'm not saying 
Hezbollah doesn't have a great deal of power still in Lebanon. 
They had counterdemonstrations today. But regardless, would 
they not have that same sort of feeling that the Lebanese have 
about the Syrians? Would they not have that same feeling in 
these countries about Russian troops?
    Mr. Socor. They definitely should.
    Senator Allen. Well, do they? Bruce? Zeyno--excuse me, Ms. 
Baran?
    Ms. Baran. Well, they do, but it's very difficult because 
the Russian troops there have been involved in corruption and 
also sort of the way that they have operated is really 
dominating the local thinking, and there's a lot of fear on the 
ground. So it's very, very difficult for the people to just 
feel comfortable. For example, in Ossetia and Abkhazia, most 
people there just have a very distorted view about what the 
rest of Georgia looks like, and they're constantly getting 
disinformation. So it's a very, very difficult process.
    For example, the President of Georgia, as Bruce mentioned, 
issued a very interesting comprehensive peace initiative to the 
South Ossetians, and they're not going to really get excited 
unless they hear and see that Brussels and Washington is going 
to really support them, because any kind of move away from the 
current status quo is going to anger Russia. And they know that 
an angry Russia can do a lot of harm, ranging from electricity 
and gas cutoffs to local provocations.
    And on the previous issue mentioned, you have, Mr. 
Chairman, focused on some traditional European allies, France 
and Spain. What we are seeing now is some of the newer NATO 
allies and EU members really pushing those two organizations to 
look at Russia and what Russia is doing in the neighborhood in 
a different way.
    For example, there's a new Friends of Georgia group formed, 
which consists of Poland, Romania, and the three Baltic 
countries. And what they hope to do is to force the rest of the 
European and NATO countries to understand the difficulties that 
other, you know, former Soviet countries are facing. So, I 
think we need to look at different types of alliances with the 
Europeans.
    Senator Allen. That's good to hear, Mr. Jackson, that the 
new countries of Europe are leading Europe and helping NATO 
understand the trials and tribulations of that transition. They 
won't have--you called a deafening silence in Brussels. Ms. 
Baran mentioned----
    Mr. Jackson. Well, I always encourage these countries not 
to shut up.
    Senator Allen. No.
    Mr. Jackson. They make very important contributions.
    Senator Allen. No, and I think it's one of the reasons why 
they are so helpful. They understand what it's like to live 
under repression. You wanted to say something, I can tell, Mr. 
Jackson.
    Mr. Jackson. Yes, sir. On your major point, every single 
successful democratic revolution, beginning with Otpor in 
Serbia and the Rose Revolution and the Orange Revolution, the 
democratic opposition has been running on a pro-European 
platform. There are no exceptions. And the only reason Mr. 
Voronin and the Communist one in Moldova yesterday, or over the 
weekend, is they ran on a pro-European platform because they 
couldn't win any other way.
    Once the institutions of Europe close to this quarter of a 
billion people, that's the end of the democratic 
transformation. That is the engine, that is the magnet, that is 
what people are changing for. I don't think that there is a 
lack--to your second point--that there is a lack of resolve or 
a lack of gumption about this. I think because we--when we were 
working together under your leadership, Poland never had a 
counterrevolution going on. Nobody was poisoning Havel or 
shooting at them or running people off the road. These people 
are confronting very dangerous entrenched autocrats and 
kleptocrats that kill people. Every single person that's run 
for President in Russia is in jail and in Belarus is in jail or 
in Ukraine they were poisoned or multiple assassinations. 
Russian paramilitary hand out AK-47s in South Ossetia to 
paramilitaries.
    There are forces in this third phase that did not exist in 
the first. These democratic revolutions in Poland and down to 
Romania occurred basically in a vacuum after the fall of the 
wall. This third phase is not occurring in a vacuum. It's 
occurring despite active opposition of entrenched interests in 
the politics of the past. That's where the $300 million came 
from, at least, to stop Yushchenko being elected, and the same 
people are coming back to run against--from outside--to run 
against the Orange Revolution and the parliamentary election in 
12 months.
    So, I think it is considerable admiration that these people 
have done so much under this kind of adversity against far more 
powerful services and militaries.
    Senator Allen. Thank you for that realism. The purpose of 
hearings is to get this perspective, and I thank all of you for 
it. Let me ask a few more questions as we--so many things were 
brought up.
    On energy, Ms. Baran, you didn't have it in your testimony, 
but I wanted to ask you about this. Azerbaijan, talking about 
getting their energy, and of course if they have this, this is 
going to really help their countries if properly utilized, the 
revenues from these natural resources. I understood that 
Azerbaijan was considering doing something similar to the 
Alaska permanent fund where the oil revenues would actually be 
shared by the people of that country.
    The reason I bring this up is I met with Ibrahim al-Jafari 
a few weeks ago in Baghdad. And in addition to presenting him 
the Virginia Declaration of Rights and all these great ideas 
for a free and just society, I also brought up that concept for 
Iraq to do something like Alaska, where Alaska residents get a 
dividend, so to speak, from the oil revenues, which is 
ownership, national unity, plus the idea that people will care 
about terrorists blowing up oil pipelines because that's money 
out of their own pocket and they want those pipelines and oil 
industries operating at--upgraded from the atrophied state that 
they're in after many decades of Saddam Hussein.
    At any rate, I understand Azerbaijan was considering this. 
If Azerbaijan, which is not a--it's a Shiite country, but not 
necessary Arab, right?
    Ms. Baran. Right.
    Senator Allen. If they do that, that might be also a model 
that ultimately the Iraqis would look to to have some unifying 
economic and ownership benefits from it. What do you know of 
Azerbaijan considering any such idea?
    Ms. Baran. Sure. They actually have already an oil fund and 
the head of the oil fund and the teams that were setting it up 
spent considerable time studying the Alaskan oil fund, and went 
to Norway and developed an ongoing project which is considered 
to be fairly successful by the IMF, World Bank, even the Soros 
organization that has looked into the oil fund.
    And the concept for it is really to, precisely, Mr. 
Chairman, the issues that you mentioned, and also this is one 
of the areas where Azerbaijan internally is talking about being 
an example or a model for Iraq and Iran. Although it is a 
majority Shiite country, it also has significant Sunni 
presence, and would like to be the model country, together with 
Kazakhstan on the other side of the Caspian, which also has a 
strong, not as transparent maybe, oil fund. The two of them 
would like to be the first countries that use their oil wealth 
in a way that's going to help the rest of the society. And 
now----
    Senator Allen. Does every resident get a check or a 
payment?
    Ms. Baran. Well, here is the trick. Now money is 
accumulating in the oil fund, and people are not going to start 
seeing any kind of immediate checks or benefits, I believe, 
until 2007 when initial money starts coming to the government, 
because now there's a lot of investment and----
    Senator Allen. Understood.
    Ms. Baran. And at that point----
    Senator Allen. But then they would.
    Ms. Baran. At that point, provided Azerbaijan moves into 
more of a democratic, transparent country and moves away from 
the clan-based corrupt system, yes. And this is why it's also 
very, very important that over the next couple years until the 
big oil money comes into the government, the country goes into 
further democracy. Otherwise, we're going to see a small group 
of people benefiting from this oil, and that leads to my 
concern that I mentioned in my testimony, Azerbaijan looking 
more like Iran used to under a shah as opposed to becoming an 
example for the new Iran and the new Iraq.
    Senator Allen. Well, thank--I know that wasn't going to be 
your testimony here, but economics--the concept of human 
freedom, obviously, is very important, but also economic 
freedom, and that the fact that the resources and wealth of a 
country, if it is actually shared, and it's no thanks to any 
government that there's oil or gas under a certain country, but 
the extent it's shared with all the citizens, that is a 
democratizing factor.
    I'm not going to get much into the Armenian genocide with 
you. Suffice it to say, if that upsets the Turks--and I'm 
speaking only for myself--the Armenian genocide happened. You 
may want to call it a massacre. I have found, as a leader in 
studying things throughout history, that leaders need to stand 
up and deplore activities when they're wrong. And that goes on 
now when maybe there will be people--a few years ago when I was 
Governor they were bombing black churches. We saw the genocide 
in Europe by the Nazis.
    I'm always touched and remember what Hitler was told and 
what Hitler said when he was told that, gosh, if you start this 
genocide of Jewish people by the Germans, the world is going to 
get very upset, they're going to be mad, you'll have to pay a 
tough price. And he said, well, who remembers the Armenians? If 
people remember what happened in the past, it's not as if I'm 
talking--I'm not asking for reparations and so forth, it 
happened 90 years ago--but one needs to remember the past and 
recognize it so that sort of activity doesn't happen in the 
future. And while we all feel that we're very enlightened, this 
sort of genocide, maybe not exactly the same, but wiping out 
masses of people because of their ethnicity or because of their 
religion, still is occurring in this world.
    And speaking only for myself, we want to have good 
relations with Turkey, but we're not going to sweep things that 
happened in history under the rug. We are not blaming anybody 
presently in Turkey for doing it. Anybody who was involved in 
it is undoubtedly long gone and dead. But it is part of, I 
think, our responsibility on human rights. So I just--that's 
from my point of view.
    Finally, Mr. Jackson, I want you to elaborate, and any 
others, your second point of your testimony, we need a 
formation of new structures for a Black Sea strategy. And you 
went through the list of the new leaders, new Presidents of 
Georgia, Romania, Ukranian Presidents. Could you elaborate on 
what you mean by a new structure? That was a very intriguing 
statement, but can you put some meat on those bones?
    Mr. Jackson. I could chicken out of this question, sir, by 
referring to President Basescu, who has actually started 
talking about this and developing the ideas organically. I 
think that one thing we realize, it is the states of the given 
region of the Euro-Atlantic that begin to take responsibility 
for their regional security and their economic integration. 
This occurred in the Visegrad Group that linked Poland and the 
Czech Republic and Hungary and Slovakia.
    Senator Allen. I see.
    Mr. Jackson. It occurred in the Nordic-Baltic cooperation 
that built a zone of security, and Mr. Haltzel sitting behind 
you is one of the key authors of this. So we have seen, 
basically, organic creations of regional structures where 
President Saakashvili has reached out to the West and asked for 
support and peacekeepers. It has been denied.
    Where President Basescu has asked for coalitions of the 
willing to come in to improve surveillance and traffic and 
bases, it has been--we cannot get it approved. I think we have 
to realize----
    Senator Allen. Approved by who?
    Mr. Jackson. Well, it depends on which organization you go 
to. I mean, NATO can go into the Black Sea to conduct----
    Senator Allen. Right.
    Mr. Jackson [continuing]. Active endeavor. Any coalition 
can, basically, police the shores of NATO and EU states for 
interdiction of drugs. That would basically be pressure on 
Transnistria not to--to use the Black Sea as a free zone of 
export. That has to--we're seeing Romania supporting Georgia in 
improving interregional cooperation. That has to be encouraged 
and enhanced.
    Regional peace dialogs, for instance, the approach in 
Transnistria, is limited to a very narrow number of powers, all 
of whom were responsive to Moscow's desires. Why isn't Romania 
in that table? Why isn't the EU part of that dialog? Why aren't 
European structures allowed to lend aid and act as training 
wheels as the region gets up on its own feet?
    Projects that exist within Europe's new neighborhood policy 
and our Millennium Challenge Account, one, they have to be 
funded, but also we should look for regional projects where the 
states are internetting themselves together as the Western 
European States have done.
    It seems to me that one could draw the wrong conclusion 
from the events of the Rose Revolution and the Orange 
Revolution, which are, of course, inspiring. But the real job 
of democracy support comes in the next 3 to 5 years as to 
helping them succeed. You know, the first inspirational event, 
that's not where the risks are. It's in this period where they 
try to build new structures and institutionalize, as a U.S. 
legislator must know instinctively. It's the 
institutionalization of the democratic imagination that makes 
all the difference.
    Can they translate this vision into a real institutional 
character that can be conveyed among nations and among peoples 
in perpetuity? That's essentially what they're trying to do. 
And we know a lot about this and I've talked about the 
coordination we could do with the European Union, who actually 
were in front of us in recognizing that this was fundamentally 
part of Europe's neighborhood and might actually--they have set 
up programs where Ukraine may pass from a neighborhood country 
to a membership country, which is certainly what my 
organization hopes to be a part of supporting.
    So, I think that this is what we should--the second Bush 
administration and this Congress should pay attention to and 
see if we can support them.
    Senator Allen. Thank you, Mr. Jackson. We've gone on for 
over 2 hours here, and I want to thank all of the panelists 
here, Mr. Jackson, Mr. Socor, and Ms. Baran, for coming and 
spending time. I could actually go on longer. I do have to get 
somewhere else and I know you do as well.
    The testimony you all brought forward here is very 
important. I will, as chairman of this committee--I've learned 
a great deal from you. I will express this to my colleagues. 
These issues will come up. This is a vitally important area for 
our country, our future, but for theirs as well.
    I'm also encouraged, to some extent, that in various ways 
the European countries are also involved. This is not something 
that the United States can do unilaterally. It's good to know 
the will of the people. There are differences I recognize in 
each one of these countries, but to the extent that they can--I 
like to, maybe, not use the word institutionalize, but the 
point is to set up constitutions, laws that protect God-given 
rights, have private ownership of property, religious freedom, 
freedom of expression, the rule of law, the rule of law that 
protects those rights and adjudicates disputes in a fair 
manner, and putting in those structures where people say not 
only are we free, not only are we controlling our own destiny, 
we are seeing that prosperity.
    And that--you're exactly right, Mr. Jackson--it's hard not 
to call you Bruce as a friend, but Mr. Jackson is exactly right 
that it's key that people see tangible impacts, that this is 
meaning something for them and for their children's future. And 
so we have a great opportunity. I realize there's a lot of 
problems here. Russia's the main culprit in a variety of ways.
    However, we do need to seize this opportunity and not look 
back 5 years from now or 4 years from now and saying, gosh, if 
we'd only done this, if we'd only done that. And it's within 
our grasp, it is within our security interest militarily, and 
also, I think it's in our economic interest to also have these 
countries developing energy. It's good for them and it's also 
good for these high prices we're paying for natural gas and 
gasoline as well and getting that online and not having just to 
rely on the existing sources.
    So, for our security as well as our economic interests, and 
of course, Americans love to spread freedom, this is a great 
opportunity. I thank all three of you all for your care, for 
your wisdom, your insight, and I look forward to fighting 
alongside of you to advance our shared goals.
    Thank you all. The subcommittee hearing is adjourned.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
